                                               EMPLOYMENT AND
                                               TRAINING
Office of Inspector General—Office of Audit
   ADMINISTRATION




                                                 Recovery Act: DOL Could Have Better
                                                 Monitored the Use of Re-employment Services
                                                 Funds to Adhere to Standards for
                                                 Transparency and Accountability




                                               This audit was performed by Foxx & Company, under contract to the U.S. Department of
                                               Labor, Office of Inspector General, and by acceptance, it becomes a report of the Office of
                                               Inspector General.




                                                                     Assistant Inspector General for Audit
                                                                          U.S. Department of Labor




                                                                                                                       March 31, 2011
                                                                                                    Date:
                                                                                           Report Number:              18-11-005-03-315
U.S. Department of Labor                                   March 2011
OFFICE OF INSPECTOR GENERAL
                                                           RECOVERY ACT: DOLCOULD HAVE BETTER
Office of Audit
                                                           MONITORED THE USE OF RES FUNDS TO
                                                           ADHERE TO STANDARDS FOR
BRIEFLY…                                                   TRANSPARENCY AND ACCOUNTABILITY
Highlights of Report Number: 18-11-005-03-315, to the
Assistant Secretary for Employment and Training.           WHAT OIG FOUND
                                                           DOL moved quickly after the Act’s passage to allocate
                                                           funds to states and develop and issue general guidance
WHY READ THE REPORT
                                                           on allowable spending categories and reporting formats.
Congress enacted the American Recovery and
                                                           For the most part, the states visited said the guidance
Reinvestment Act of 2009 (Recovery Act) to promote
                                                           provided by DOL was timely. However, we found that
economic recovery and assist those most affected by the
                                                           DOL needed to provide additional guidance to direct
recession. The Department of Labor (DOL) received an
                                                           spending more effectively and to report more meaningful
additional $400 million in Wagner-Peyser grant funds for
                                                           results. For example, DOL could have directed the states
states. In appropriating these funds, Congress required
                                                           to use the RES grants to correct claimant service-related
that $250 million of the $400 million be spent for
                                                           weaknesses that had been identified by several
reemployment services (RES) for Unemployment
                                                           organizations. Moreover, DOL guidance did not ensure
Insurance (UI) claimants. Authority to obligate the
                                                           the level of transparency and accountability the Recovery
additional RES funds provided by the Act expired on
                                                           Act required. Thus DOL could not provide a breakout of
September 30, 2010.
                                                           how the 54 states and territories spent RES funding.
The Recovery Act required agencies to implement an
                                                           The states we visited said that the RES funding had
unprecedented level of transparency and accountability
                                                           helped provide more and better quality services to UI
to ensure the public could see where and how their tax
                                                           claimants. However, DOL did not establish adequate
dollars were being spent and what results the spending
                                                           standards for client service, or collect enough information
produced. The U.S. DOL Office of Inspector General
                                                           on state activities to demonstrate whether the funds were
(OIG) audited the Employment and Training
                                                           effectively and efficiently spent. The standards of
Administration’s (ETA) implementation and oversight of
                                                           transparency and accountability established by the Act
the RES funding to determine if the Act’s requirements
                                                           were not met because of the lack of results oriented
were achieved.
                                                           goals, objectives, and measurable outcomes.
WHY OIG CONDUCTED THE AUDIT
Our audit objectives were to answer the following          WHAT OIG RECOMMENDED
questions:                                                 We recommend to the Assistant Secretary for
                                                           Employment and Training that DOL:
         1.		 Did the Department establish sufficient and     - Establish priorities, outcome measures and
              timely planning and reporting procedures to         effective data collection systems for future
              assure adequate oversight of how                    Wagner-Peyser funding to address program
              reemployment services funds were used?              weaknesses and better measure the services
         2.		 Did states use reemployment services funds          states provide to UI claimants,
              under the Recovery Act, as intended?            - Develop monitoring and financial reporting
         3.		 What were the outcomes of the states’ use of        requirements to enable DOL to report how
              the Recovery Act RES funds?                         effectively federal funds were spent by states
                                                                  employment and reemployment services, and
READ THE FULL REPORT                                          - Determine from independent analysis what state
To view the report, including the scope, methodology,             experiences were and identify best practices,
and full agency response, go to:                                  areas for improvement, and short and long term
http://www.oig.dol.gov/public/reports/oa/2011/18-11-              achievements. DOL can then use this
005-03-315.pdf.                                                   information to set goals and measures for
                                                                  outcomes and achievements for future funding

                                                           ETA disagreed with one recommendation and did not
                                                           provide responses which adequately addressed the
                                                           other two recommendations. As requested by ETA the
                                                           OIG has added material that provides additional
                                                           information about what ETA did to provide guidance to
                                                           the states.
                                                                            Prepared by Foxx & Company
                                            For the U. S. Department of Labor – Office of Inspector General

Table of Contents
Independent Auditor’s Report...................................................................................... 3
 

Results in Brief .............................................................................................................. 4
 

Objective 1 — Did the Department establish sufficient and timely planning 

              and reporting procedures to assure adequate oversight of 

              how reemployment services funds were used? ............................... 7
 

          DOL developed and provided timely general guidance, but missed an 

          opportunity to direct states to spend Recovery Act funds more effectively 

          and to report more meaningful results.. ................................................................ 7


Finding 1 -- DOL Did Provide Timely General Guidance But Missed an Opportunity to 

               Direct the states to Address Identified Long-Term Deficiencies and 

               Weaknesses in the Reemployment Services Program .......................... 8 


Objective 2 — Did states use reemployment services funds under the 

              Recovery Act, as intended?............................................................... 11
 

          DOL did not require states to report how they spent their RES allocations, 

          the reports did not distinguish activities funded by Recovery Act funding 

          from regular Wagner-Peyser funding and the reporting was inconsistent. 

          However, for the states visited, it appears that the funds were spent in 

          accordance with DOL guidance. ........................................................................ 11


Finding 2 -- DOL Did Not Monitor How RES Funds were Spent to Achieve Transparency 

               Regarding the Uses of the Funds ......................................................... 12 


Finding 3 -- Recovery Act RES Funds Were Not Obligated Early in the Grant Period and 

                DOL Did Not Provide Proper Oversight to Determine if the Funds were 

                Obligated Concurrently with Other Grant Funds................................... 13


Objective 3 — What were the outcomes of the states’ use of the Recovery

              Act RES funds? .................................................................................. 15
 

           DOL did not collect enough reliable data to measure the impact of the 

          grants or to assess whether states spent the grant funds effectively and 

          efficiently. . ........................................................................................................ 15
 

Finding 4 -- Unreliable DOL Reports on Grant Activities Prevented Assessments of 

                Grant Outcomes ................................................................................... 17


Recommendations ...................................................................................................... 18




                       Recovery Act: Reemployment Services Grants for Unemployment Insurance Claimants
                                                                           Report No. 18-11-005-03-315
                                                                        Prepared by Foxx & Company
                                        For the U. S. Department of Labor – Office of Inspector General


Exhibits

Exhibit 1 Recovery Act RES Funding for States............................................................ 21
 
Exhibit 2 Expenditure Categories by Four States of the Recovery Act RES Funding .. 23
 

Appendices

Appendix A Background................................................................................................ 29
 
Appendix B Objectives, Scope, Methodology, and Criteria ........................................... 35
 
Appendix C Acronyms and Abbreviations ..................................................................... 37
 
Appendix D ETA Response to Draft Report .................................................................. 41

Appendix E Auditor Response to Agency Comments……………………………………. 61 





                     Recovery Act: Reemployment Services Grants for Unemployment Insurance Claimants
                                                                         Report No. 18-11-005-03-315
                                                                   Prepared by Foxx & Company
                                   For the U. S. Department of Labor – Office of Inspector General




                                  Independent Auditor’s Report

March 31, 2011
Independent Auditor’s Report

Ms. Jane Oates
Assistant Secretary
  for Employment and Training
U.S. Department of Labor
200 Constitution Avenue, NW
Washington, D.C. 20210


The American Recovery and Reinvestment Act of 2009 (Recovery Act) was signed into
law on February 17, 2009, to preserve and create jobs, promote the Nation’s economic
recovery, and to assist those most impacted by the recession 1 . The Recovery Act
provided more than $65 billion for Unemployment Insurance funds. To better serve the
sudden surge in Unemployment Insurance Claimants resulting from the 2008 recession,
Title VIII of the Recovery Act provided the Department of Labor an additional $400
million in Wagner-Peyser funds for State Unemployment Insurance (UI) and
Employment Service Operations for grants to states and jurisdictions (hereafter referred
to as the states). In appropriating these funds, Congress required that $250 million of
the $400 million be spent for reemployment services (RES) for UI claimants. States
were authorized to spend their allocation on the “integrated Employment Service and UI
information technology, required to identify and serve the needs of such claimants.” The
actual amount available for allotment to the states was $247.5 million. The Recovery
Act made one percent of the funds available to the Department of Labor (DOL) to
administer and oversee the funds. The Recovery Act also required DOL to establish
planning and reporting procedures "necessary to provide oversight of funds used for the
services." DOL’s Employment and Training Administration (ETA) administers the
regular annual Wagner-Peyser grants and the RES grant which supplemented the
regular grants.

The distribution of the RES funds to the states was announced in ETA Training and
Employment Guidance Letter dated March 6, 2009. Guidance letters are a principal
means used by ETA to communicate its policies and requirements. The funds were
available to the states for obligation through September 30, 2010. The funds were to be
spent no later than the end of Program Year 2010 (June 30, 2011). ETA’s guidance


1
    The American Recovery and Reinvestment Act (Public Law 111-5), February 17, 2009

                                           Recovery Act: Reemployment Services Grant for UI Claimants
                                               3                       Report No. 18-11-005-03-315
                                                                    Prepared by Foxx & Company
                                    For the U. S. Department of Labor – Office of Inspector General

stated that both Congress and the Administration expected the majority of these funds
to be spent within the first year of availability.

Our audit objectives were to determine (1) if DOL established sufficient and timely
planning and reporting procedures to assure adequate oversight of how reemployment
services funds were used, (2) whether states used reemployment services funds under
the Recovery Act, as intended, and (3) the outcomes of the states’ use of the Recovery
Act RES funds. The audit included a review of guidance and data available from ETA;
interviews with and data collected from DOL headquarters and Regions 1 (Boston), 2
(Philadelphia), 3 (Atlanta), and 6 (San Francisco) officials; and interviews with and data
obtained from officials in four states: California, Florida, New York, and Pennsylvania. 2

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. Our objectives, scope, methodology, and criteria are detailed in
Appendix B.

RESULTS IN BRIEF
Results in Brief
Within approximately one month of the Recovery Act’s enactment, DOL allocated the
RES funds and issued guidance to the states on allowable spending categories and
reporting requirements. State officials said that the guidance provided by DOL was
timely and defined allowable uses of the grant. However, DOL’s guidance could have
directed spending toward areas known to need improvement and required more specific
reporting of what was accomplished with the RES funding.

DOL’s spending guidance did not direct states to address long-term weaknesses and
problems with the Wagner-Peyser program. Reports by GAO and DOL, dating back to
the mid-1990s, have identified serious weaknesses which limited the amount and
quality of services provided to UI claimants. DOL could have directed states to target at
least some portion of the funding to address these key areas needing improvement.
Even though DOL guidance stated that “we must implement the Recovery Act
expeditiously and effectively with full transparency and accountability of our expenditure
of funds,” the guidance did not require states to report information to DOL on what
activities the grant funds were expended. As a result, while the states increased staffing
to serve the influx of Unemployment Insurance claimants, DOL could not provide
information on which of the allowable activities the 54 states and jurisdictions spent the
$247.5 million in RES funding. State officials said that DOL focused on making sure that
the funds were obligated quickly and by the statutory deadline of September 30, 2010.

2
  These states are geographically dispersed, characterize different economic and employment conditions
and challenges, and represent a significant portion of the nation’s population. The RES funding for these
four states represents 27 percent of the total $247.5 million in RES funding. In addition, four of the six
DOL ETA regional offices oversee these states.  

                                           Recovery Act: Reemployment Services Grant for UI Claimants
                                               4                       Report No. 18-11-005-03-315
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General


Furthermore, although DOL guidance stated that “It is the intent of Congress that
Recovery Act funds for employment and training be spent concurrently with regular
formula funds to greatly increase the capacity of the workforce system to serve workers
in need,” DOL did not establish reporting or monitoring systems to determine if this
Congressional mandate was followed.

The four states we visited provided schedules which identified how the RES funding
was expended. Most funds were used to hire additional employees to assist UI
claimants and provide higher quality reemployment services. However, in many states
there were delays in hiring staff to provide these services for UI claimants. DOL
Regional and State officials said this was because there were hiring freezes which
required exemptions. In addition, because of the flat funding for the Wagner-Peyser
program over the years, many states were operating at a ‘bare bones’ level as
characterized by DOL and the states. Therefore, many states were not in a position to
quickly hire and train new staff.

Nationally, with the emphasis being on obligating the RES funds by September 30,
2010, all but a small portion of the funds were obligated by the deadline. However,
obligations were concentrated in the latter part of the grant period. Although DOL’s
guidance stated that the majority of the funds should be spent within the first year of
availability, almost half of the funds were obligated in the last 6 months of the 18 month
obligation period leading up to September 30, 2010. As of July 2010, with only 3 months
remaining, 20 states had not obligated 40 percent or more of the funding. DOL Regional
Office monitoring reports indicated a concern by DOL leadership that Recovery Act
funds were being obligated and spent too slowly.

State officials told us that RES funding was beneficial and increased the quality and
quantity of services to UI claimants. However, despite the emphasis on transparency
and accountability, DOL could not demonstrate that there were direct and specific
outcomes that resulted from the RES funds. DOL guidance stated that it was difficult to
determine the impact of the RES funding because these funds were spent at the same
time and on the same type of clients as the regular Wagner-Peyser grant funding. We
agree that it would be extremely difficult for the states to determine which UI claimants
received services funded through the Recovery Act and which received services with
regular funding. Given this, DOL reporting requirements used all UI claimants receiving
staff assisted services as an indicator of the effect of the Recovery Act funds. However,
this method is not exact as it overstated the RES funded activities because both funding
sources were used to provide services to UI claimants. As a result, DOL could not
demonstrate compliance with the Recovery Act requirement to report on the UI
claimants serviced only by the RES funding.

In addition, states were not reporting the services provided to UI claimants consistently
or correctly. When we showed these inconsistencies and errors to DOL officials, they
said that this condition was due to the states various interpretations of the reporting
guidelines DOL provided. DOL officials said there has been difficulty obtaining

                                     Recovery Act: Reemployment Services Grant for UI Claimants
                                         5                       Report No. 18-11-005-03-315
                                                             Prepared by Foxx & Company
                             For the U. S. Department of Labor – Office of Inspector General

consistency in the reporting. We found that DOL was not adequately reviewing the
accuracy of the information as we determined that the reporting data had errors and
inconsistencies.

Although DOL said that the Recovery Act provided “an unprecedented level of funding,”
DOL did not provide adequate guidance to the states on how to best spend the RES
funds, did not change its management or oversight of the program, and could not show
specific outcomes of the Recovery Act funding. Although several organizations have
identified serious program weaknesses and deficiencies since the mid 1990s, DOL did
not require any additional measurements, goals or objectives for the use of the
Recovery Act funds. With the use of the $247.5 million, DOL could have directed the
states to use at least a portion of the RES funding to address these long standing
shortcomings in the reemployment services program, which may have effected long
lasting changes in the states programs; and establish better measurements of
outcomes.

We recommend to the Assistant Secretary for Employment and Training Administration
that DOL:

   •	 Establish priorities and outcome measures and reliable data collection systems
      for future Wagner-Peyser funding to address program weaknesses and better
      measure the services states are providing to UI claimants,
   •	 Develop adequate monitoring and financial reporting requirements to enable
      DOL to report to Congress and the public how federal funds are spent by states
      to provide employment and reemployment services, and
   •	 Determine from its own independent analysis what states’ experiences were with
      the Recovery Act RES funding to identify best practices, areas for improvement,
      and short and long-term achievements. DOL can then use this information to set
      goals and measures for outcomes and achievements for all future funding
      Congress provides for reemployment and employment services.

 ETA provided comments on our report and disagreed with several statements,
conclusions, and one of the recommendations; ETA did not provide responses which
would adequately resolve the other two recommendations. As requested by ETA in their
comments, the OIG has added material that provides additional information about what
ETA did to provide guidance to the states and to respond to the Recovery Act’s
requirements. ETA’s comments are included in their entirety as Appendix D.

ETA’s comments contain a number of factual errors and misinterpretations of what the
draft report stated or concluded. Rather than address each of these comments
individually, we have prepared summary responses to their comments that are included
in their entirety as Appendix E.

Based on our analysis of ETA’s comments and changes made in response to their
comments, the fundamental message of the report remains unchanged. We believe our
recommendations are valid and adequately supported by the report’s findings and

                                   Recovery Act: Reemployment Services Grant for UI Claimants
                                       6	                      Report No. 18-11-005-03-315
                                                                  Prepared by Foxx & Company
                                  For the U. S. Department of Labor – Office of Inspector General

conclusions. The Recovery Act called for an unprecedented level of transparency and
accountability for how Federal dollars were to be spent and for reporting the outcomes
of that spending. ETA’s management and implementation of the RES grant authorized
by the Recovery Act did not adhere to these transparency and accountability standards.
Especially at this time of increased budget scrutiny, DOL needs to provide better
information on the effectiveness and outcomes for the Wagner Peyser program in the
future.


RESULTS AND FINDINGS

Objective 1 — Did the Department establish sufficient and timely planning and
reporting procedures to assure adequate oversight of how reemployment
services funds were used?


DOL developed and provided timely general guidance but missed an opportunity to
direct states to spend Recovery Act funds more effectively and report more meaningful
results.

Timely General Guidance Provided

Given the short lead time and need to quickly implement the Recovery Act RES funding,
DOL headquarters and its six regions did a good job communicating expenditure
guidelines to the states. With the difficult economic times and high rate of unemployed
who needed to be served, providing timely guidance was especially important so the
states could use the funding to assist those most impacted by the recession as intended
by the Recovery Act. DOL headquarters used Training and Employment Guidance
Letters (TEGLs) to outline general categories of allowable activities for RES fund use
and establish reporting requirements. In addition, as mandated by the Recovery Act,
DOL emphasized that all funds were to be obligated by September 30, 2010. However,
DOL needed to provide additional guidance to direct spending more effectively and to
report meaningful results. The Wagner-Peyser Act gave DOL authority to approve state
plans for implementing the grants.

DOL allocated the RES funding to the states on March 6, 2009. 3 The agency issued
TEGL 14-08 on March 18, 2009, that, among other things, provided policy guidance and
direction regarding the Recovery Act funding for activities authorized under the Wagner-
Peyser Act. 4 It also instructed states to move quickly to use the Recovery Act funding,
in conjunction with other available funds, to provide career assessments; remedial and

3
  TEGL 13-08 issued March 6, 2009 on “Allotments for training and employment services as specified in
the American Recovery and Reinvestment Act of 2009 (Recovery Act) for activities under the Workforce
Investment Act of 1998 (WIA)”.
4
  TEGL 14-08 issued March 18, 2009 on “Guidance for Implementation of the Workforce Investment Act
and Wagner-Peyser Act funding in the Recovery Act of 2009 and State Planning Requirements for
Program Year 2009.” 

                                          Recovery Act: Reemployment Services Grant for UI Claimants
                                              7                       Report No. 18-11-005-03-315
                                                                 Prepared by Foxx & Company
                                 For the U. S. Department of Labor – Office of Inspector General

occupational training; job search assistance to unemployed workers; and to undertake
other activities that could aid in the recovery of local, regional, and state economies.

In April and May 2009, DOL issued TEGLs 17-08 and 24-08 to outline requirements for
reporting on the expenditure of Recovery Act funds and for reporting performance
accountability information. 5 TEGL 24-08 stated that it is the intent of Congress that the
Recovery Act funds were to supplement and be spent concurrently with annual Wagner-
Peyser appropriations. The guidance stated that it expected states and local areas to
fully utilize the additional workforce funding to substantially increase the number of
customers served.

DOL supplemented these formal, written instructions with additional guidance in
webinars, conferences, forums, consultations with the ETA regional offices and
information on the ETA website. The DOL officials told us that the regional ETA officials
responded to questions from the states. Also, DOL provided technical assistance on
how the Recovery Act RES funds could be spent and on how monthly and quarterly
reports were to be prepared. DOL also completed a Recovery Act Assessment and
Technical Assistance Consultation to determine the level of state and local workforce
readiness to properly use Recovery Act funds and to help ETA plan for any needed
technical assistance. 6

Reaction of States to DOL Guidance

The state officials we met said the guidance provided by DOL was generally timely and
defined the purpose and allowable spending categories for the grant funds. These
officials stated that the TEGLs and webinars provided good information on the activities
for which the Recovery Act RES funds could be used. There was a general consensus
that the webinars were informative and useful in providing the states the same
information simultaneously. The state officials we met with provided constructive
feedback on how DOL could have improved the guidance. For example, officials from
one state said that the guidance on reporting monthly statistics changed often. In
another state, officials we met with stated there was some confusion on how monthly
and cumulative reporting was to be completed.

Finding 1 — DOL Did Provide Timely General Guidance but missed an
Opportunity to Direct the States to Address Identified Long Term Deficiencies and
Weaknesses in the Reemployment Services Program.

Although DOL allocated the RES funds quickly and provided general guidance in a
timely manner to the states, DOL needed to provide additional guidance to direct

5
  TEGL 17-08 issued April 23, 2009 entitled “American Recovery and Reinvestment Act (Recovery Act) 

Funds Financial Reporting Requirements”. TEGL 24-08 issued May 21, 2009 entitled “Workforce 

Investment Act and Wagner-Peyser Act Performance Accountability Reporting for the American Recovery 

and Reinvestment Act of 2009.”

6
  A report on this review, “The Readiness Report” was issued on July 10, 2009, and assessed to what 

extent the states were ready to use the Recovery Act funds and their technical assistance needs. 


                                         Recovery Act: Reemployment Services Grant for UI Claimants
                                             8                       Report No. 18-11-005-03-315
                                                                  Prepared by Foxx & Company
                                  For the U. S. Department of Labor – Office of Inspector General

spending more effectively and to report meaningful results. Reports by GAO and DOL,
dating from the mid 1990s, identified serious weaknesses which limited the amount and
quality of services provided to UI claimants. While some of these reports were issued
early in the RES grant funding period, they generally continued to address long standing
shortcomings in the reemployment services program. DOL missed an opportunity to
direct states to spend a portion of RES to address program shortcomings thus creating
long-lasting program improvements.

Following are some examples of reported weaknesses and deficiencies cited over the
years:

    •	 GAO reported in June 2007 that many states had not regularly maintained their
       profiling models -- statistical models that forecast which UI claimants were most
       likely to exhaust their UI benefits before finding a job. As a result, the models in
       some states may not have been accurately identifying claimants who were likely
       to exhaust benefits. Although Labor provided technical assistance to states
       requesting it, the Department did not regularly monitor state efforts to adjust their
       models. GAO recommended that the Secretary of Labor ensure that ETA takes a
       more active role in ensuring the accuracy of state profiling models.

    •	 In July 2009, DOL issued a “National Workforce System Readiness Level and
       Technical Assistance Needs for Implementation of the American Recovery and
       Reinvestment Act Report” that identified numerous examples where states
       needed to address serious weakness and deficiencies. 7 The results provided
       DOL with an indicator of state and local readiness and identified areas needing
       improvement. Even though a state was deemed “overall ready”, it could have had
       problems needing attention. This was true for the majority of the 53 states and
       jurisdictions DOL reviewed. 8 Some examples of areas that required specific
       actions:

           o	 9 percent of the states did not have policies that targeted “those hardest to
              serve” populations.
           o	 40 percent of the states had not devised Rapid Response strategies to
              announced and occurring layoffs.
           o	 20 percent of the states were not ready to implement overall program
              requirements.
           o	 22 percent of the states were not ready to track Recovery Act funds in a
              manner clearly distinguishable from non-Recovery Act funds.
           o	 24 percent of the states did not have adequate systems to track Recovery
              Act funds.
           o	 26 percent of the states did not have adequate One Stop centers, i.e.
              locally managed, but federally funded, centers where employment

7
  DOL conducted this assessment between mid-April and May 22, 2009. DOL held consultations with all 

53 States and territories and with 156 local areas. 

8
  DOL did not review the readiness of Guam. 


                                         Recovery Act: Reemployment Services Grant for UI Claimants
                                             9	                      Report No. 18-11-005-03-315
                                                                  Prepared by Foxx & Company
                                  For the U. S. Department of Labor – Office of Inspector General

               services from multiple federal and other programs are available to
               community residents.

    •	 The Brookings Institution completed an assessment of the One-Stop Career
       Center system in April 2009 which provided detailed information on the cost of
       providing core services (career counseling, skills workshops, job matching, and
       training) and who receives support. This report recommended improvements in
       UI claimant job search assistance and work search screening. The Study also
       suggested a revamping of performance measures to more effectively allocate
       limited training resources. 9

    •	 The National Association of State Workforce Agencies (NASWA) examined how
       well state UI and workforce systems coordinate to provide services to UI
       claimants. 10 NASWA’s September 2010 report noted the following:

           o	 Most One-Stop Career Centers nationwide have no UI program presence.
           o	 There is a lack of a strong connection between the UI program and the
              other services provided by the publicly-funded workforce system such as
              job search and career counseling.
           o	 The flat-funding of the Wagner-Peyser program over the last three
              decades has added to this disconnect and has made it difficult for states
              and local One-Stop Career Centers to provide more staff-assisted
              services to UI claimants and job seekers who need extra help. Limited
              efforts and funding have been made available by the federal government
              over the past several years to address the disconnect such as the Worker
              Profiling and Reemployment Services (WPRS) and/or the Reemployment
              and Eligibility Assessment (REA) initiatives. However, many UI claimants
              no longer have a clear connection point to the wide array of employment
              and training services offered through One Stop Career Centers and/or
              other parts of the workforce system.
           o	 Research over the years has shown that worker profiling or early and on-
              going analysis of UI claimants’ skills and experience against the available
              job openings, coupled with the receipt of job search assistance, is an
              effective and efficient way to speed referred claimants' return to productive
              employment.
           o	 Current UI profiling models have a limited application. Many states have
              not updated or managed their models on an on-going basis.
           o	 One Stop Career Center staff members in some local areas do not receive
              UI profiling information on a regular basis on those individuals likely to
              exhaust in their benefits.



9
  Report by The Hamilton Project/The Brookings Institution: “Strengthening One-Stop Career Centers: 

Helping More Unemployed Workers Find Jobs and Build Skills:, issued April 2009 

10
   Report of the Unemployment Insurance and Workforce System Connectivity Workgroup: “A National 

Call for Innovation: Rethinking Reemployment Services for UI Claimants”, issued September 2010.


                                          Recovery Act: Reemployment Services Grant for UI Claimants
                                              10	                     Report No. 18-11-005-03-315
                                                                   Prepared by Foxx & Company
                                   For the U. S. Department of Labor – Office of Inspector General

The Recovery Act provided what DOL itself called “an unprecedented level of funding”,
but DOL did not direct the use of these funds in the most efficient and effective manner.
DOL should have directed the states to spend a portion of their funds on long-standing
weaknesses such as outdated profiling models, inadequate One-Stop centers, and
financial and program results tracking system deficiencies.

Objective 2 — Did states use reemployment services funds under the Recovery
              Act, as intended?

        DOL did not require states to report how they spent their RES allocations, the
        reports did not distinguish activities Recovery Act funding from regular Wagner-
        Peyser funding and the reporting was inconsistent. However, for the states
        visited, it appears that the funds were spent in accordance with DOL guidance.

States We Visited Spent RES Grant Funding for Authorized Purposes

On March 18, 2009, DOL issued TEGL 14-08, which instructed states on the use of the
$247.5 million in Recovery Act funds for reemployment services. The funds were to be
used on services including: counseling, providing occupational and labor market
information, completing reemployment assessments, and providing referrals to
employers and job banks, portals, and job openings. The states were to use the funds to
provide reemployment services to UI claimants through the One-Stop system. 11 In
addition, states could use the funds to identify technological changes and updates to
their profiling systems that might result in serving more UI claimants, as appropriate.
The funds were allocated to the states in March 2009 and had to be obligated by
September 30, 2010, as required by the Recovery Act.

State officials from the 4 states we visited were able to provide us information and
reports on how funds were expended. Based on the reports provided, it appears that
they expended the Recovery Act RES funding for allowable activities (see Exhibit 2 for
state expenditures). 12 All of these states told us that the majority of funding was devoted
to hiring additional employees to assist more UI claimants and provide better
reemployment services. Several officials in headquarters, the regions, and states called
the Recovery Act RES funding a staffing grant. Table 1 shows the number of employees
the state officials told us they hired:




11
 Allowable activities are listed in Section 7(a) through (c) of the Wagner-Peyser Act.
12
  Because DOL and its six regional offices did not require the States to provide information to them on
how their funds were spent we were able to review only the financial information provided by the four
States visited. Since we did not perform a financial audit of the costs incurred by DOL and the four
States, we cannot express an opinion of the reasonableness of the costs incurred or reported.

                                           Recovery Act: Reemployment Services Grant for UI Claimants
                                               11                      Report No. 18-11-005-03-315
                                                                  Prepared by Foxx & Company
                                  For the U. S. Department of Labor – Office of Inspector General


Table 1: Number of State Workforce Agency Employees Hired with Recovery Act
RES Grant Funding

       State                                                 Number of workforce agency
                                                                 employees hired
       California                                                       240
       Florida                                                          251
       New York 13                                                      190
       Pennsylvania                                                      78

Officials we talked to at the DOL and state levels told us significant amounts of time
were required to add staff capacity. Three of the four states had statewide hiring freezes
which required exemptions in order to hire staff. In addition, because of the flat funding
of the regular Wagner-Peyser employment services program over the past three
decades, the states we visited were not in a position to quickly hire and train new staff.
DOL headquarters officials said the $247.5 million in RES funding was the first increase
in Federal funding for reemployment services since 1983. DOL officials added that the
program had been ‘starved’ for a long time.

Finding 2 — DOL Did Not Monitor How RES Funds were Spent to Achieve
Transparency Regarding the Uses of the Funds.

DOL officials required the states to report quarterly on the obligation amounts of the
Recovery Act RES funding but did not require reporting on how states spent grant
funds. The lack of information on how grant funds were used was not consistent with
the Recovery Act’s requirement for transparency and accountability. The DOL officials
told us there was not enough time to develop and implement a new data collection
system, nor was it practical to do so, given the limited duration of the Recovery Act
funding.

For the states we reviewed, the officials told us that DOL never asked for reports on
how they were spending their funds, but rather asked for reports on how quickly the
funds were being obligated. The states were able to provide us with information on how
they spent the RES funding. (See Exhibit 2 of this report.).

We obtained several DOL monitoring reports and related documentation that stressed
the need for funds to be obligated. However, none of these reports or documentation
referenced the need for sound financial or fiduciary spending responsibility. For
example, an August 2010 DOL memorandum to the states in one region contained the
following statements that very emphatically stressed the need to obligate the funds by
the deadline:


13
  The 190 employees is the number of Full Time Equivalent (FTE) positions at the highest FTE level
expended under the Recovery Act RES program for any one quarter of the program year.

                                          Recovery Act: Reemployment Services Grant for UI Claimants
                                              12                      Report No. 18-11-005-03-315
                                                               Prepared by Foxx & Company
                               For the U. S. Department of Labor – Office of Inspector General

       The purpose of this memo is to alert you to growing concerns by ETA’s national
       and regional offices regarding the obligation of ARRA funds for the Wagner-
       Peyser and ARRA Reemployment Services (RES) programs.

       During our last state Administrators’ meeting we discussed state strategies to
       ensure ARRA funds are fully obligated and expended within the established
       timeframes.

       In the coming weeks as the September 30 deadline approaches, it will be
       incumbent upon the Regional Office to report that the Region’s states are in good
       standing on this issue.

       Please be prepared to provide specific details on the plan your state has in place
       to fully obligate and expend these funds and on any issues that could prevent
       your state from meeting its goals in this area.

In addition, a September 2010 state monitoring report stated that “there continues to be
concern at the highest levels of national leadership regarding the expenditure of ARRA
funds, especially regarding Wagner-Peyser, RES, and Dislocated Worker programs.” In
fact, the same monitoring report contained the following statement: “Regional Office
staff is available to assist the state in developing a plan that will ensure 100 percent
obligation of these funds within the established parameters.”

Because DOL did not establish adequate financial reporting and monitoring
requirements, it could not provide a detailed accounting for all projects or activities for
which Recovery Act funds were expended or obligated. DOL could only report that
virtually all of the $247.5 million of RES funding provided for UI claimants was either
obligated or spent. According to DOL reports, of the $247.5 million, only $964,754 was
not obligated by the deadline.

Finding 3 — Recovery Act RES Funds Were Not Obligated Early in the Grant
Period and DOL Did Not Provide Proper Oversight to Determine if the Funds were
Obligated Concurrently with Other Grant Funds.

Funds Not Obligated Early in the Grant Period

Our review of nationwide data showed that almost half of the RES funds were obligated
in the last 6 months of the 18 month grant obligation period. Thirty-one states had not
obligated half of the RES grants six months before the obligation deadline. With 3
months remaining until the deadline, 20 states still had not obligated 40 percent or more
of the grant funding.

DOL policy stated that the RES grants be spent quickly and concurrently with other
funding sources. For example, TEGL 13-08 stated that “States are expected to spend
Recovery Act funding quickly and effectively” and that “It is the Congress’ intent, as well


                                     Recovery Act: Reemployment Services Grant for UI Claimants
                                         13                      Report No. 18-11-005-03-315
                                                               Prepared by Foxx & Company
                               For the U. S. Department of Labor – Office of Inspector General

as that of the Administration, that the majority of these funds will be utilized within the
first year of availability.”

TEGL 14-08 stated that the Recovery Act funds “must be used to supplement annual
…Wagner-Peyser appropriations” and were “to be spent concurrently with other …
Wagner-Peyser funding.” This TEGL further stated that “While the law requires states to
track and spend Recovery Act funds separately from other…Wagner-Peyser formula
funds, ETA encourages states to strategically align all of their resources to meet both
short- and long-term state and regional workforce development needs. States should
anticipate that Congress and the public will be looking for expenditures and
performance results very quickly.”

However, as noted, there were delays in program implementation. According to DOL
and state officials, state workforce agencies had to seek exemptions from statewide
hiring freezes to hire staff for the one stop centers. In addition, because of the flat
funding for this program over the years, some of the states we visited were operating at
a ‘bare bones’ level. Therefore, many states were not in a position to quickly hire and
train new staff.

According to officials in the states we visited, state workforce agencies had to seek
exemptions from statewide hiring freezes to hire staff for the one stop centers. In
addition, because of the flat funding for this program over the years, some of the states
we visited were operating at a ‘bare bones’ level.

Officials in one state told us that the influx of Federal dollars provided by the Recovery
Act actually created management challenges. Despite considerable time and effort
being spent emphasizing the need to draw down RES funds as quickly as possible, a
number of local areas in the state had difficulty putting the funds to use. We were
provided financial documents which showed that 12 of their 24 workforce board areas
would not be able to obligate large portions of the funding allocations by the September
30, 2010 deadline. .Prior to the obligation deadline, the state officials told us that all
funds not obligated by these workforce boards were redistributed to the other 12
workforce boards. The state was eventually able to obligate all its Recovery Act dollars
before the funding period expired. However, the officials told us they had to constantly
emphasize the need to obligate the remaining funds.

The fact that many states had difficulty obligating funds lessened the impact of the
funding. According to DOL reports, nationwide, about 64 percent of the grant funding
was obligated in the last half of the grant period (January through September 2010). In
many states, the spending was concentrated in a briefer period.

New employees hired using the Recovery Act RES funding received training in order to
be ready to provide services to the UI claimants. The training included instruction in
departmental programs such as UI, WIA, Wagner-Peyser and Reemployment
Services/REA, Trade related programs, Worker Opportunity Tax Credit, Labor Market
Information, Veterans Programs and Priority of Service, Performance Information,

                                      Recovery Act: Reemployment Services Grant for UI Claimants
                                          14                      Report No. 18-11-005-03-315
                                                                 Prepared by Foxx & Company
                                 For the U. S. Department of Labor – Office of Inspector General

Sexual Harassment, Ethics, Diversity, Americans with Disabilities Act, and other related
programs. Managers and staff at the One-Stops also provided job shadowing and
additional assistance when requested by trainees.

A December 2010 NASWA briefing stated that 13 of 16 states they visited used RES
funds to hire temporary staff 14 . The actions by the states to add new employees and
temporary staff to provide more and better services to UI claimants were well
intentioned. However, as of September 30, 2010, several states have already
terminated staff hired because the funding was coming to an end. Therefore, these
trained and experienced resources were no longer available to assist UI claimants.

Concurrent Spending

Although a DOL TEGL stated that the RES funds were to be spent concurrently with
other grant funds, DOL did not have a financial reporting requirement that would identify
if regular grant funds were displaced by the RES grant funds. Furthermore, we could not
find any reference to monitoring by DOL to be sure this guidance was followed. DOL’s
monitoring reports did, however, address whether all RES funds were obligated by the
September 30, 2010 deadline.

The September 30, 2010 deadline may have delayed the use of the 2010 regular
Wagner-Peyser program grant. Our analysis of DOL reports showed that 20 states still
had not obligated 40 percent or more of their RES grants by June 30, 2010, just 3
months before the obligation deadline. In the remaining 3 months, these states also had
regular Wagner-Peyser grant funds to obligate. Nationally, 19 percent of the regular
2010 grant funding was obligated during this period; however, these 20 states obligated
only 8 percent of this regular funding source. In fact, 8 of the 20 states did not obligate
any funds at all from the regular Wagner-Peyser grant during this 3-month period. An
official in one state we visited told us the state had regular Wagner-Peyser funding to
spend after the RES grant period expired that was used to pay the salaries of
employees hired with the RES funding. Officials said these regular funds would have
been spent earlier if the RES grant had not been available.

Objective 3 — What were the outcomes of the states’ use of the Recovery Act
              RES funds?

       DOL did not collect enough reliable data to measure the impact of the grants or
       to assess whether states spent the grant funds effectively and efficiently.

RES Grant Funding was an Important, but Temporary, Aid to States

State officials told us that the RES funds helped them cope with a major increase in
participants needing reemployment services. Prior to receiving the RES grant funds,

14
  Early Implementation of the Recover Act, Presentation at the Road to Recovery Reemployment
Summit, Arlington, VA, December 14, 2010. (Richard Hobbie, Executive Director, NASWA)

                                         Recovery Act: Reemployment Services Grant for UI Claimants
                                             15                      Report No. 18-11-005-03-315
                                                                   Prepared by Foxx & Company
                                   For the U. S. Department of Labor – Office of Inspector General

state officials told us there were shortcomings in the ability to respond to UI claimants
that required reemployment services. According to the state officials we visited the
increased RES funding enabled the four states to expand the mode of operations from a
minimal level of interaction with claimants relying on group presentations to an
approach that provided individualized and one-on-one focused assistance. The states
reported increasing the percentage of UI claimants who were called into the one stop
centers. In addition, states reported that staff members were able to provide more
follow-up calls to get claimants into the one-stop centers and encourage the continued
pursuit of assistance. This is especially useful because studies have demonstrated that
“early intervention” is most effective for unemployed people. One state said that the
addition of new hires was very helpful as their active case load in the state doubled from
July 2008 to September 2010 because of the extension of unemployment benefits
during the period. In addition to funding for the new hires, some states purchased
computers and other technology for the One-Stop centers.

Because the great majority of RES funds were spent on personnel costs by the states
we visited, the benefits of the RES awards were mainly limited to the time when the
extra staff could be kept on board. Two of the states visited had concerns about
creating expectations for better levels of reemployment services with the personnel
hired from RES funding. They feared that when the funding was no longer available,
they might not be able to keep the additional staff and levels of services would decline.

DOL Guidance on Reporting Outcomes

DOL issued TEGL 24-08 which stated that “reporting requirements (for the Recovery
Act funds) were designed to keep the additional reporting burden to a minimum, while
ensuring that the agency collects the necessary data to report timely information to
stakeholders about the use of the Recovery Act funds. Accountability guidelines for the
Recovery Act emphasize data quality, streamlining data collection, and collection of
information that demonstrates measurable program outputs and outcomes.” 15

The guidance also stated that it was difficult to determine the impact of the Recovery
Act RES funding on individual clients because these funds were spent at the same time
and on the same type of clients as the regular Wagner-Peyser grant funding. In other
words, Recovery Act RES funded clients were not separately identified in the records.
Accordingly, the states could not distinguish between clients served by the Recovery
Act RES funding and those served by the ongoing Wagner-Peyser funding.

Because of its inability to track RES funded clients separately, DOL required the states
to report all UI claimants who received staff assisted services as an indicator of the
effect of the Recovery Act funds. States were to report all UI claimants receiving the
following staff assisted services as RES-funded participants:

      •   workforce information services,

15
     TEGL 24-08 issued May 21, 2009; see page 3.

                                          Recovery Act: Reemployment Services Grant for UI Claimants
                                              16                      Report No. 18-11-005-03-315
                                                               Prepared by Foxx & Company
                               For the U. S. Department of Labor – Office of Inspector General

   •   career guidance,
   •   job search activities,
   •   referrals to employment,
   •   referrals to WIA services, and
   •   referrals to training, including WIA-funded training.

We appreciate the difficulties in tracking which clients were served with each funding
source and that DOL instead had the states report on the staff assisted services
provided to all UI claimants as an indicator of the effect of the Recovery Act funds.
However, the reports provided did not provide meaningful information or results
achieved by the Recovery Act funds.

Finding 4 — Unreliable DOL Reports on Grant Activities Prevented Assessments
of Grant Outcomes

The reports of grant outcomes that DOL and the states prepared under the guidance
provided by DOL were flawed for two reasons. First, DOL’s use of all UI claimants
receiving staff assisted services as an indicator for an actual count of RES funded
clients overstated RES funded activities because regular Wagner-Peyser program
grants also funded services to UI claimants. Second, states were not reporting the
services provided to UI claimants consistently, credibly or in accordance with DOL
guidance. These reporting problems prevented an overall assessment of the grant
funding outcomes.

We obtained DOL reports on services to participants for all states as of September 30,
2010. We found that certain data elements were not credible or were reported
inconsistently by the states. For example, New York reported that the total number of
participants was the same number who received job search activities. For the other
three states visited, the number who received job search activities was a fraction of the
total number of participants.

When we brought these inconsistencies to DOL’s attention, we were told that it was due
to the states’ various interpretations of the broad reporting guidelines DOL provided.
The officials said there had been difficulty obtaining consistency in the reporting. We
requested the monthly reports for June 2009 through January 2011 for further analysis
to assure that the September 2010 report was not an anomaly. We were provided June,
July, August, and December 2010 reports.

Our analysis of the same performance items for the same states showed the following
wide variances. For example, the percent of participants receiving job search activities
in Florida ranged from almost 87 percent in June to only 4 percent in August. For New
York, the number of participants receiving services ranged from 79,759 in August, to
538 in December. Regarding the number of job search activities, California reported
such services to 28,031 participants in June and only 526 in August. There are wide
variances for Pennsylvania also; the December statistics are zero as the state did not
report information for that month.

                                      Recovery Act: Reemployment Services Grant for UI Claimants
                                          17                      Report No. 18-11-005-03-315
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General


DOL also collected and reported data for all jobseekers, eligible UI claimants, and
veterans by Program Year. We analyzed the number of eligible UI claimants for
Program Years 2008 and 2009 from these reports on the ETA website. The $247.5
million in Recovery Act RES funding represented a substantial percent increase in the
regular Wagner-Peyser funding to states; the annual regular funding for Program Year
2009 was $703.6 million. As shown below, available DOL data does not make clear that
there was a proportionate increase in services to claimants with this increase in funding.
Our analysis showed that:

   •	 In Program Year 2008, 5,174,664 eligible claimants received staff assisted 

      services nationwide. 

   •	 In Program Year 2009, when a substantial amount of the Recovery Act RES
      funding was expended by the states, 5,673,727 eligible claimants received these
      services, an increase of only 9.6 percent.
   •	 The number of eligible claimants receiving services actually decreased between
      Program Years 2008 and 2009 for the following 14 states: Alabama, Arkansas,
      Georgia, Idaho, Iowa, Mississippi, Missouri, New York, North Carolina, Ohio,
      Oregon, Puerto Rico, Rhode Island, and Tennessee.
   •	 New Mexico reported the same exact numbers for staff assisted services in both
      the 2008 and 2009 Program Years.
   •	 Within the reports DOL provided for Program Years 2008 and 2009, no data was
      shown for Pennsylvania and Texas and the Program Year shown for these two
      states was 2007.

Because the reporting on client services was inconsistent and inaccurate, an analysis of
funding accomplishments and state performance was not possible. The fact that the
reports had obvious errors and inconsistencies indicated that DOL was not adequately
reviewing the accuracy of the information. Accordingly the use of the reported data as a
management tool was questionable.

RECOMMENDATIONS

We recommend that the Assistant Secretary for Employment and Training
Administration:

   1. Establish priorities, outcome measures, and reliable data collection systems for
      future Wagner-Peyser funding to address program weaknesses and better
      measure the services states are providing to UI claimants.
   2. Develop adequate monitoring and financial reporting requirements to enable
      DOL to report how effectively federal funds are spent by states to provide
      employment and reemployment services.
   3. Determine from its own independent analysis what states’ experiences were with
      the Recovery Act RES funding to identify best practices, areas for improvement,
      and short and long-term achievements. DOL can then use this information to set


                                     Recovery Act: Reemployment Services Grant for UI Claimants
                                         18	                     Report No. 18-11-005-03-315
                                                            Prepared by Foxx & Company
                            For the U. S. Department of Labor – Office of Inspector General

      goals and measures for outcomes and achievements for all future funding
      provided by Congress for reemployment and employment services.

We appreciate the cooperation and courtesies that ETA personnel extended to Foxx &
Company during this audit.




Foxx & Company




                                  Recovery Act: Reemployment Services Grant for UI Claimants
                                      19                      Report No. 18-11-005-03-315
                                    Prepared by Foxx & Company
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





          Recovery Act: Reemployment Services Grant for UI Claimants
              20                      Report No. 18-11-005-03-315
                                             Prepared by Foxx & Company
             For the U. S. Department of Labor – Office of Inspector General




Exhibits 





                   Recovery Act: Reemployment Services Grant for UI Claimants
                       21                      Report No. 18-11-005-03-315
                                    Prepared by Foxx & Company
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





          Recovery Act: Reemployment Services Grant for UI Claimants 

              22                      Report No. 18-11-005-03-315 

                                                                    Prepared by Foxx & Company
                                    For the U. S. Department of Labor – Office of Inspector General


                                                                                         Exhibit 1
                                               16
Recovery Act RES Funding for States

Exhibit 1 Pathways Out of
                  State                     Allotment     Unobligated
                  Alabama                     $3,183,191             0
                  Alaska                        2,690,443            0
                  Arizona                       4,389,354            0
                  Arkansas                      2,068,659            0
                  California                  29,356,604             0
                  Colorado                      3,882,771            0
                  Connecticut                   2,780,996            0
                  Delaware                        691,311            0
                  District of Columbia            892,142     $35,808
                  Florida                     13,841,612             0
                  Georgia                       7,319,681            0
                  Hawaii                          891,404            0
                  Idaho                         2,241,618            0
                  Illinois                    10,354,527             0
                  Indiana                       4,911,339            0
                  Iowa                          2,329,002            0
                  Kansas                        2,148,043            0
                  Kentucky                      3,216,272            0
                  Louisiana                     3,244,680            0
                  Maine                         1,333,069       62,135
                  Maryland                      4,180,276            0
                  Massachusetts                 5,039,660            0
                  Michigan                      8,661,262            0
                  Minnesota                     4,309,431            0
                  Mississippi                   2,261,200            0
                  Missouri                      4,624,505            0
                  Montana                       1,831,862            0
                  Nebraska                      2,201,537     749,290
                  Nevada                        2,169,475            0
                  New Hampshire                 1,010,732            0
                  New Jersey                    6,663,857            0
                  New Mexico                    2,055,671            0
                  New York                    14,284,511             0
                  North Carolina                6,932,122            0
16
     This is as of March 10, 2011

                                          Recovery Act: Reemployment Services Grant for UI Claimants
                                              23                      Report No. 18-11-005-03-315
                                                 Prepared by Foxx & Company
                 For the U. S. Department of Labor – Office of Inspector General


North Dakota                1,865,383                 0
Ohio                        9,386,022                 0
Oklahoma                    2,445,498                 0
Oregon                      3,061,444                 0
Pennsylvania                9,436,706                 0
Puerto Rico                 2,903,521                 0
Rhode Island                  936,203                 0
South Carolina              3,502,884                 0
South Dakota                1,724,043                 0
Tennessee                   4,634,046            90,941
Texas                      16,992,555                 0
Utah                        2,686,910                 0
Vermont                       807,640                 0
Virginia                    5,508,640            26,580
Washington                  5,144,216                 0
West Virginia               1,973,337                 0
Wisconsin                   4,557,218                 0
Wyoming                     1,337,596                 0
Guam                          115,811                 0
Virgin Islands                487,508                 0
TOTAL                    $247,500,000          $964,754




                       Recovery Act: Reemployment Services Grant for UI Claimants
                           24                      Report No. 18-11-005-03-315
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General


                                                                                   Exhibit 2
Expenditure Categories by Four States of the Recovery Act RES Funding



As shown by the tables below, we found there was a wide variance in how the state
maintained information on RES expenditures. California had 16 categories of
expenditure, New York had 14, Pennsylvania had 12 and Florida had 9 categories of
expenditures. Because the states were not required to track expenditures in a uniform
manner, it would be very difficult to perform an overall comparison of how the 4 states
much less the 54 states and territories expended the RES funds or whether expending
funds in one category over another resulted in better results.


California


                                                RES
                Expenditure Category          Funding
                Direct Personal Services     $10,340,030

                Annual Leave Taken               559,557

                Other Personal Services        2,189,795

                Personnel Benefits             5,451,761
                Supplies                         100,625
                Communications                   528,320
                Travel                           132,036
                Equipment Rental                 272,698
                Equipment Expenses               922,364
                Premises Rent                  2,183,642
                Premises Expense                 191,300
                Services                       2,306,375
                Other                            126,912
                Capital Expenditures             245,958
                Adjustment                       686,225
                Sub grantee Training             114,386
                TOTAL                        $26,351,984




                                    Recovery Act: Reemployment Services Grant for UI Claimants
                                        25                      Report No. 18-11-005-03-315
                                                            Prepared by Foxx & Company
                            For the U. S. Department of Labor – Office of Inspector General


Florida

                                                       RES
           Expenditure Category                      Funding
           Salaries and Benefits                      $9,744,243

           AWI Administrative Operations               2,640,310

           WFI Administrative Operations                  62,500
           Employ Florida Outreach                       254,616
           Campaign
           Florida Trends Next                           512,046
           Help Wanted On-line (HWOL)                    244,000
           Job Vacancy Hiring Survey                     231,000
           Power Seeker Workshop                          17,500
           Transferable Occupation                       125,000
           Relationship Quotient - TORQ
           (software)
           TOTAL                                    $13,831,215

New York

                                                       RES
           Expenditure Category                      Funding
           Personnel Service (Salaries)               $8,163,644
           Personnel Benefits (Health
           insurance, Worker’s comp)                  $3,526,299
           Supplies                                     $110,114
           Communication                                $124,747
           Postage                                       $18,478
           Travel                                        $77,390
           Equipment Rent                                 $8,224
           Equipment Expense                            $235,903
           Premises Rent                              $1,070,031
           Premises Expenses                            $286,235
           Services                                     $470,574
           Other Expenses                                $19,458
           Capital Purchase                              $58,515
           Indirect Costs (State-wide central
           services                                    $114,899
           TOTAL                                    $14,284,511

                                   Recovery Act: Reemployment Services Grant for UI Claimants
                                       26                      Report No. 18-11-005-03-315
                                                                    Prepared by Foxx & Company
                                    For the U. S. Department of Labor – Office of Inspector General


Pennsylvania 17


                                                           RES
                 Expenditure Category                    Funding
                 Salaries and benefits                  $9,514,871
                 Travel                                    144,828
                 Training                                         63
                 Telecommunications                          1,953
                 Specialized Services                       16,729
                 Electronic Data Processing                  8,631
                 Rentals/Leases                              1,243
                 Office Supplies                             1,329
                 Software                                      325
                 Other Computer Equipment                   48,186
                 Miscellaneous                               1,928
                 Other Operating Expense 18              (300,009)
                 TOTAL                                  $9,440,077




17
   Pennsylvania provided more categories than reflected in the chart above; consolidated these in to 

miscellaneous categories.

18
   This is reflected of Pennsylvania’s adjustment to their records.


                                           Recovery Act: Reemployment Services Grant for UI Claimants
                                               27                      Report No. 18-11-005-03-315
                                    Prepared by Foxx & Company
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





          Recovery Act: Reemployment Services Grant for UI Claimants
              28                      Report No. 18-11-005-03-315
                                               Prepared by Foxx & Company
               For the U. S. Department of Labor – Office of Inspector General




Appendices 





                     Recovery Act: Reemployment Services Grant for UI Claimants
                         29                      Report No. 18-11-005-03-315
                                      Prepared by Foxx & Company
      For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





            Recovery Act: Reemployment Services Grant for UI Claimants
                30                      Report No. 18-11-005-03-315
                                                                 Prepared by Foxx & Company
                                 For the U. S. Department of Labor – Office of Inspector General

                                                                                    Appendix A

Background
Appendix A Background
President Obama signed the American Recovery and Reinvestment Act (Recovery Act)
(P.L. 111-5) into law on February 17, 2009. The Recovery Act provides the U.S.
Department of Labor (DOL) with funds to, among other things, increase employment
and training opportunities. The stated purposes of the Recovery Act were to:

           •	 Preserve and create jobs and promote economic recovery;
           •	 Assist those most impacted by the recession;
           •	 Provide investments needed to increase economic efficiency by spurring
              technological advances in science and health;
           •	 Invest in transportation, environmental protection, and other infrastructure
              that will provide long-term economic benefits; and
           •	 Stabilize state and local government budgets, in order to minimize and
              avoid reductions in essential services and counterproductive state and
              local tax increases.

The Recovery Act required agencies to implement an unprecedented level of
transparency and accountability to ensure the public can see where and how their tax
dollars are being spent and recipients of these funds deliver programmatic results.
Accordingly, recipients of Recovery Act funding were required to report on a quarterly
basis the amount of funds expended and the number of jobs created among other
things, to FederalReporting.Gov.

On April 3, 2009, the Office and Management and Budget (OMB) issued guidance,
Updating Implementation Guidance for the American Recovery and Reinvestment Act of
2009 (M-09-15), reinforcing the Administration's intent that Federal agencies award
Recovery Act funds responsibly and with transparency.

DOL's Recovery Act website provides information on the Recovery Act and DOL held
periodic webinars and other informational forums, to provide timely information to
Recovery Act stakeholders concerning DOL's responsibilities under the Act. DOL's
Employment and Training Administration (ETA) also maintains a website for its
Recovery Act activities.

Grants to States for Reemployment Services for Unemployment Insurance Claimants

Title VIII of the Recovery Act provided the Department of Labor an additional $400
million in Wagner-Peyser 19 funds for State Unemployment Insurance (UI) and

19
  The Wagner-Peyser Act of 1933 (Wagner-Peyser) established a nationwide system of public
employment offices known as the “Employment Service” (ES). The Workforce Investment Act (WIA) of
1998 amended Wagner-Peyser and made the Employment Service part of the WIA) One-Stop services
delivery system.

                                        Recovery Act: Reemployment Services Grant for UI Claimants
                                            31	                     Report No. 18-11-005-03-315
                                                                   Prepared by Foxx & Company
                                   For the U. S. Department of Labor – Office of Inspector General

Employment Service Operations for grants 20 to states. In appropriating these funds,
Congress required that $250 million of the $400 million be spent for reemployment
services (RES) for UI claimants. States were to spend their allocation on the “integrated
Employment Service, and UI information technology, required to identify and serve the
needs of such claimants.” The Recovery Act also required the Department of Labor to
establish planning and reporting procedures "necessary to provide oversight of funds
used for the services."

The distribution of the RES funds to the states was published by the ETA in Attachment
V of TEGL 13-08 21 on March 6, 2009. The actual amount available for allotment to the
states was $247.5 million (the Recovery Act makes one percent of the funds available
to the Federal agency to administer and oversee the funds). These funds were available
to the states through September 30, 2010, but must be spent no later than the end of
Program Year 2010 (June 30, 2011). ETA’s guidance states that both Congress and the
Administration expect the majority of these funds to be spent within the first year of
availability

As required by OMB, DOL submitted a Recovery Act plan describing its objectives,
administration, and oversight activities related to the use of the $400 million provided to
the Employment Service—including the $250 million specifically for reemployment
services. OMB also required the Department to develop a risk management plan for
use of the additional funds, but set no deadline for submitting it. The OIG previously
reported (September 2009) that the Department needs to update its Recovery Act Plans
to fully reflect program-specific risks. 22

Reemployment Services to UI Claimants

The RES funds available to the states under the Recovery Act have their origin with the
1993 amendments to the Social Security Act—P.L. 103-152. Under these amendments,
Congress required that states establish “Worker Profiling and Reemployment Service
(WPRS) systems.” The purpose of the WPRS is to identify those UI claimants through
“profiling methods” that are most likely to exhaust their UI benefits, refer them to
reemployment services, and collect follow-up information on their post-program
outcomes (e.g., employment status, earnings).



20
   The use of the term “grants” does not meet competitive grants. Rather, they are allotments to States
and outlying areas based on a formula calculation described in Section 6 of the Wagner-Peyser Act
(29.U.S.C. 49e).
21
   TRAINING AND EMPLOYMENT GUIDANCE LETTER NO. 13-08. Allotments for training and
employment services as specified in the American Recovery and Reinvestment Act of 2009 (Recovery
Act) for activities under the Workforce Investment Act of 1998 (WIA). Workforce Investment Act Adult,
Dislocated Worker and Youth Activities Program Allotments; Wagner-Peyser Act Allotments, and
Reemployment Service (RES) Allotments. U.S. Department of Labor. Employment and Training
Administration. March 6, 2009. http://wdr.doleta.gov/directives/corr_doc.cfm?DOCN=2718
22
   Recovery Act: Performance Reporting Creates Challenges for the Department of Labor is available at
http://www.oig.dol.gov/public/reports/oa/2009/18-09-002-01-001.pdf.

                                           Recovery Act: Reemployment Services Grant for UI Claimants
                                               32                      Report No. 18-11-005-03-315
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General

Factors that states may consider in “profiling” may include a claimant’s age, education,
and length of prior employment, occupation and work history. “Reemployment services”
describes a range of activities to help a UI claimant secure a job. Examples include, but
are not limited to: group workshops on resume writing, interviewing skills, and labor
market information; and staff-assisted or self-service use of career assessment tools
and job listings. In contrast to WIA Adult and Dislocated Worker formula grant funds,
RES funds cannot be used to pay for long-term occupational skills training or an
Individual Training Account. The focus of RES is on helping the UI claimant re-enter the
workforce as quickly as possible.

ETA Guidance

On March 18, 2009, ETA issued TEGL 14-08, which included guidance to states on use
of the $247.5 million in Recovery Act funds for RES. According to ETA, States must use
the funds to provide RES to UI claimants through the One-Stop system, in addition to
regular Wagner-Peyser-funded employment services (ES). Section 7(a) through (c) of
the Wagner-Peyser Act allows ES funds to be used on the following services:
counseling, testing, occupational and labor market information, assessment, referral to
employers and appropriate recruitment services and technical services for employers.
Specifically, this may include:

   1.  Services provided to UI claimants identified through the UI profiling system;
   2.  In-person staff assisted services;
   3.  Initial claimant reemployment assessments;
   4.  Career guidance and group and individual counseling, including provision of
       materials, suggestions, or advice which are intended to assist the job seeker in
       making occupation or career decisions;
   5. Provision of labor market, occupational, and skills transferability information that
       clarifies claimants’ reemployment opportunities and skills used in related or other
       industries;
   6. Referral to job banks, job portals, and job openings;
   7. Referral to employers and registered apprenticeship sponsors;
   8. Referral to training;
   9. Assessment, including interviews, testing, individual and group counseling, or
       employability planning; and 

   10. Referral to training by WIA-funded or third party service providers. 


In addition, ETA encouraged states to identify technological changes and updates to
their systems that might result in serving more UI claimants, and use RES funds for IT
upgrades, as appropriate. ETA also provided instructions to the states on how to
submit a modified State Plan to account for use of additional funds received under the
Recovery Act.




                                    Recovery Act: Reemployment Services Grant for UI Claimants
                                        33                      Report No. 18-11-005-03-315
                                                                Prepared by Foxx & Company
                                For the U. S. Department of Labor – Office of Inspector General

Reporting Outcomes from Use of RES Funds under the Recovery Act

In addition to reporting the use of Recovery Funds to FederalReporting.Gov, DOL’s
Recovery Act Plan for the Wagner-Peyser Act Employment Service requires that states
must continue to submit regular monthly Wagner-Peyser Act Employment Service
report, but must add one new data element: the number of UI claimants served with
Recovery Act funds that are referred to and placed in WIA-funded training. According to
GAO, which originally reported on the RES initiative in 2005, adding this reporting
requirement would help Congress and other oversight bodies understand “the impact of
the $250 million” that the Recovery Act made available to specifically help UI claimants
return to the workforce. 23

ETA Assessment of States’ Capacity to Use Additional Recovery Act Funds for
Reemployment Services

Between mid-April and May 22, 2009, Regional Office ETA staff engaged in a Recovery
Act Assessment and Technical Assistance Consultation process to determine the
“readiness” of states and local workforce areas to use Recovery Act funds quickly and
effectively, as Congress intended. ETA staff held “consultations” with all 53 states and
territories and 156 local areas—conducting a total of 209 site visits nationwide. One of
ETA’s objectives in doing the “consultations” or “readiness reviews” was to identify the
type of technical assistance the public workforce system required to effectively use
Recovery Act funds. ETA summarized the results of the “consultations” in the report,
“National Workforce System Readiness Level and Technical Assistance Needs for
Implementation of the American Recovery and Reinvestment Act,” issued July 10, 2009.

According to the Readiness Review report, one of the key “readiness” questions used in
ETA’s consultation reviews was, “Has the state/local area UI, WIA, and WP [Wagner-
Peyser] program staff collaborated to develop reemployment services to UI claimants
most likely to exhaust UI benefits?” ETA reported that 46 states were “ready,” and that
only 10 rated their technical assistance needs in this area as “medium/high.”

Technical Assistance Provided by ETA

In addition to the guidance provided in TEGL 14-08, ETA conducted several webinars
that focused on how states could use RES funds under the Recovery Act. Examples of
topics covered in these webinars included: targeting job development to UI claimants;
strengthening reemployment through UI connections, and new strategies for laid off
professional or “white-collar” workers. In addition to the webinars, ETA held regional
reemployment conferences and other technical assistance forums throughout the RES
grant period.

23
   See Unemployment Insurance: Better Data Needed to Assess Reemployment Services to Claimants.
GAO-05-413 June 24, 2005. Summary. Status of Recommendations for Executive Action.
http://www.gao.gov/products/GAO-05-413



                                        Recovery Act: Reemployment Services Grant for UI Claimants
                                            34                      Report No. 18-11-005-03-315
                                                                      Prepared by Foxx & Company
                                      For the U. S. Department of Labor – Office of Inspector General


At least three published studies have examined states’ use of reemployment services
funds to help UI claimants quickly return to work. In 2005, GAO reviewed the extent to
which states had shifted to remote filing (e.g., via phone, Internet) and what they had
done to make UI claimants aware of reemployment services and profiling requirements.
GAO concluded there was insufficient data to “provides a complete picture of the
services received or the outcomes obtained by UI claimants.” Additionally, GAO found
that few states monitor whether UI claimants are receiving reemployment services, and
that fewer monitor outcomes. According to GAO, states often lacked sufficient
information technology to track outcomes from RES activities. As of August 19, 2010,
Congress provided $70.8 billion to DOL (See Table 1 below.)

Table 1: Department of Labor Recovery Act Funding, as of August 19, 2010

                                                                             Amount a
Program                                                                     (millions)         Percent
Unemployment Insurance                                                        $65,996           93.17
Training and Employment Services                                                 3,950            5.58
State Unemployment Insurance and Employment
Service Operations                                                                  400           0.56
Community Service Employment for Older Americans                                    120           0.17
National Emergency Grants for Health Insurance
Coverage                                                                             40           0.06
Job Corps                                                                           250           0.35
Departmental Management                                                               80          0.11 

Total                                                                          $70,836b         100.00 

a
  – The amounts other than “Unemployment Insurance and National Emergency Grants for Health Insurance
Coverage” were obtained from the Recovery Act dated February 17, 2009. The “Unemployment Insurance” amount
was provided by the Office of the Assistant Secretary for Administration and Management, and includes amounts
made available for Federal and State Extended Benefits, Extension of Emergency Unemployment Compensation,
and Federal Additional Unemployment Compensation programs. The National Emergency Grants for Health
Insurance Coverage amounts were adjusted in United States Public Law 111-226 (HR1586).
b
  – The total amount does not include $6 million provided to the OIG to provide oversight over the Department’s
Recovery Act activities.




                                              Recovery Act: Reemployment Services Grant for UI Claimants
                                                  35                      Report No. 18-11-005-03-315
                                    Prepared by Foxx & Company
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





          Recovery Act: Reemployment Services Grant for UI Claimants
              36                      Report No. 18-11-005-03-315
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General

                                                                        Appendix B
Objectives, Scope, Methodology, and Criteria
Appendix B Objectives, Scope, Methodology, and Criteria
Objectives

Our audit objectives were to answer the following questions:

          1. Did the Department establish sufficient and timely planning and reporting
             procedures to assure adequate oversight of how reemployment services
             funds are used?
          2. Did states use reemployment services funds under the Recovery Act, as
             intended?
          3. What were the outcomes of the states’ use of the Recovery Act RES
             funds?

Scope

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objective. We conducted our fieldwork at the ETA National Office in
Washington, D.C., four ETA Regional Offices located in Boston, Philadelphia, Atlanta,
and San Francisco, and the states of California, Florida, New York, and Pennsylvania.

The audit included interviews and review of grant documents, guidance, and data
available from ETA’s Office of Workforce Investment, Office of Grants Management,
and Office of Regional Management, as well as external sources. The audit included
interviews and review of data from four states: California, Florida, New York, and
Pennsylvania. These states are geographically dispersed, characterize different
economic and employment conditions and challenges, and represent a significant
portion of the nation’s population. In addition to the state work, we collected nationwide
information on RES funding expenditures. The audit work was completed in March
2011.

Methodology

To accomplish our audit objectives, we obtained an understanding of the Recovery Act.
We conducted interviews with ETA officials from the Office of Workforce Investment,
Office of Policy, Office of Regional Management, and from four regional offices to gain
an understanding of the grant monitoring processes.




                                     Recovery Act: Reemployment Services Grant for UI Claimants
                                         37                      Report No. 18-11-005-03-315
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General

The audit conducted at the Federal and State levels and included:

      •	 Determining the appropriate/allowable uses of reemployment services funds,
      •	 Assessing the guidance and oversight provided by the Department,
      •	 Reviewing a sample of states to determine how funds were used and whether
         those uses were appropriate/allowable, and
      •	 Reviewing the outcomes of the RES grant funding.

We conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the
audit to obtain sufficient, appropriate evidence to provide a reasonable basis for our
findings and conclusions based on our audit objectives. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our
audit objectives. All required steps in the DOL/OIG reporting process were completed
following the audit work.

Examples of the audit results and the relevance of information analyzed to answer the
audit’s objectives are provided in the in the body of the report.

Criteria

We used the following criteria to accomplish our audit:

   • 	 American Recovery and Reinvestment Act of 2009, dated February 17, 2009
   • 	 Workforce Investment Act of 1998, as amended, dated August 7, 1998
   • 	 Training and Employment Guidance Letters:
           o	 No. 13-08, dated March 6, 2009
           o	 No. 14-08, dated March 18, 2009
           o	 No. 17-08, dated April 23, 2009
           o	 No. 24-08, dated May 21, 2009


   • 	 Office of Management and Budget (OMB) Memorandums:
           o	 M-09-10: Initial Implementing Guidance for the American Recovery and
              Reinvestment Act of 2009, dated February 18, 2009
           o	 M-09-15: Updated Implementing Guidance for the American Recovery and
              Reinvestment Act of 2009, dated April 3, 2009
           o	 M-09-21: Implementing Guidance for the Reports on Use of Funds
              Pursuant to the American Recovery and Reinvestment Act of 2009, dated
              June 22, 2009




                                    Recovery Act: Reemployment Services Grant for UI Claimants
                                        38                      Report No. 18-11-005-03-315
                                                           Prepared by Foxx & Company
                           For the U. S. Department of Labor – Office of Inspector General


                                                                             Appendix C
Acronyms and Abbreviations
Appendix C Acronyms and Abbreviations
Recovery Act   American Recovery and Reinvestment Act of 2009
DOL            Department of Labor
ETA            Employment and Training Administration
GAO            Government Accountability Office
NASWA          National Association of State Workforce Agencies
OIG            Office of Inspector General
OMB            Office of Management and Budget
RES            Reemployment Services
TEGL           Training and Employment Guidance Letter
UI             Unemployment Insurance
WIA            Workforce Investment Act




                                  Recovery Act: Reemployment Services Grant for UI Claimants
                                      39                      Report No. 18-11-005-03-315
                                   Prepared by Foxx & Company
   For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





         Recovery Act: Reemployment Services Grant for UI Claimants
             40                      Report No. 18-11-005-03-315
                                                                    Prepared by Foxx & Company
                                    For the U. S. Department of Labor – Office of Inspector General

                                                                                                  Appendix D
ETA Response to Draft Report



     u.s. Department of Labor               Employment and Training Administration
                                            200 Constitution Avenue, N.W.
                                            Washington . D.C. 20210




            MEMORANDUM FOR:             ELLIOT P. LEWIS
                                        Assistant Inspector General

            FROM:                       JANE OATES             ~~
                                        Assistant Secretary    U
            SUBJECT:                   Response to the Office of the Inspector General's
                                       Audit of the Reemployment Services Program , Draft
                                       Audit Report 18-11-005-03-315

            Date:                      March 30, 2011

            The Employment and Training Administration (ETA) appreciates the opportunity
            to respond to the Office of the Inspector General's (DIG) draft audit report on the
            Recovery Act: Reemployment SeNices Grant tor UI Claimants. We are pleased
            that the DIG audit states that the Labor Department (DOL) and the state
            workforce system did a good job implementing this new and temporary ARRA
            program to provide reemployment services to UI claimants at a time of great
            need in the economy. In the face of state hiring freezes and huge demand for
            services, states overcame many challenges to employ and train a temporary
            force to provide assistance to unemployed workers. DOL's timely guidance
            outlined allowable activities for the new program and also recommended to
            states which activities should be emphaSized. The OIG audit report recognizes
            DOL's timely allocations of resources as well as the comprehensive technical
            assistance delivered to the workforce system. It found that states spent the grant
            funds on allowable activities. As of January 2011 , over 5.4 million UI claimants
            received reemployment services with these funds.

            However, we are troubled that this OIG audit also presents findings that are
            inaccurate or in conflict with our legislative authority. Since DOL staff were
            responsive to the information requests from the OIG auditors and briefing them
            on all of the various law and policy requirements, we can only conclude that
            these findings are based on a lack of understanding or mistakes on the part of
            the auditors. This response puts forth a factual rebuttal to the findings and
            recommendations.

            Finding 1: DOL Did Provide Timely General Guidance But Missed an
            Opportunity to Direct the States to Address Identifl9d Long-Term Deficiencies
            and Weaknesses in the Reemployment Services Program.




                                             Recovery Act: Reemployment Services Grant for UI Claimants
                                                 41                      Report No. 18-11-005-03-315
                                                         Prepared by Foxx & Company
                         For the U. S. Department of Labor – Office of Inspector General




 ETA Response: We apprised the auditors that DOL did not have the authority
nor was it our policy to "direct" grantee expenditures. In short, it is illegal for DOL
to "direcr states without the express authorization from Congress to target the
funds to a narrower scope of allowable activities than contained in law. As
directed by the Recovery Act and per the Requirements of the Grants and
Cooperative Agreements Act of 1977, ETA provided guidance within its authority
and encouraged (without mandating) states to address every known area in need
of further strengthening state reemployment services to UI claimants. These
areas were initially discussed in the primary source of formal guidance on RES
funds, Training and Employment Guidance letter (TEGl) 14-08, which
recommended the following categories of suggested strategies for spending RES
funds:

    •   Profiling and the Use of Statistical Modeling
    •   Collaboration Among State Employment Service, Unemployment
        Insurance, and Labor Market Information OfficeS
    •   [providing the] Full Array of {Reemployment] Services
    •   Upgrading of Information Technology

ETA took the opportunity in its guidance to emphasize the strategies that the
state RES programs should include; these strategies are based upon information
from various information sources, including reports and audits identifying RES­
related program needs. The OIG auditors did not identify any speCifIC strategy or
"weakness" that was not included in DOL's guidance recommendations.

In addition. ETA backed up its recommendations by providing extensive technical
assistance on Reemployment Services. Since the passage of ARRA. ETA has
held nearly 40 technical assistance webinars for this $250 million program to
guide states in their use of RES funds or in direct support of better services to UI
claimants (See Attachment A). Many additional resources were posted to the
newly created RES Community of Practice (See Attachment 8) . A sampling of
webinar titles includes:

   •    ETA's Vision and Guidance: Using your RES Funds
   •    RES: Strengthening Your Reemployment Efforts through Strong U/
        Connections
   •    Innovative Approaches to Obligating Funds by Sept 30, 2010
   •    Re-envisioning U/ Claimant Reemployment Strategies: A Call to Innovate
   •    Quick Reference on Allowable Uses of ARRA RES Funds
   •    NY's Innovative RES Function

ETA also held six Regional Recovery and Reemployment Forums. These were
implemented to provide timely and state-customized technical assistance to the
system in a mode that enabled wide system participation. The Forums had a
combined total attendance of 2,201 participants, with representatives from all 50
states and three of four territories. According to our final report on the forums,


                                          2




                                   Recovery Act: Reemployment Services Grant for UI Claimants
                                       42                      Report No. 18-11-005-03-315
                                                         Prepared by Foxx & Company
                         For the U. S. Department of Labor – Office of Inspector General




the most frequently covered workshop topics were Flexible Service Delivery,
Skills Assessment. Technology and Tools, and Actionable Workforce Data.
These wor1<.shop topics coincided with areas highlighted in TEGl14-08 .

Beyond providing states with guidance, tools and access to program experts, the
premise of directing states to focus on certain services also violates the
Workforce Investment Act (WIA) of 1998, which established a decentralized
public workforce system with a national network of local One·Stop Career
Centers that are the access points for the delivery of employment-related and
training services. As with many of its programs, DOL allocates funding to states,
which in turn set statewide policies and then, distribute funding according to state
and local needs. The OIG audit report does not reflect a full understanding of
this fundamental concept.

As a final note, the OIG audit took exception with DOL's guidance for states 10
obligate funds by September 30, 2010. However, Congress and the Recovery
Act itself emphasized rapid obligations to ensure an immediate positive impact
and included September 30, 2010 as a statutory requirement. DOL carried out
its role by reinforcing the Congressional intent and imposed deadline and
equipping states with ideas about how and where to invest these funds to help
make the program successful.

Finding 2: DOL Did Not Monitor How RES Funds Were Spent to Achieve
Transparency Regarding the Uses of the Funds.

ETA Response: We disagree with many of the facts stated by the OIG auditors
in this finding. As a result of incorrect facts and assumptions, we believe the
analysis is flawed. Specifically:

}>   OIG Audit: "DOL officials required the States to report quarterly on the
     obligation amounts of the Recovery Act RES funding but did not require
     reporting on how states spent grant funds. The lack of information on how
     grant funds were used was not consistent with the Recovery Act's
     requirement for transparency and accountability.·

        o All RES grantees completed a quarterly ETA 9130 financial report.
          That report not only requires submission of data on obligations, but
          also revenue received , expenditures, and the unliquidated obligations
          that remain against the total funds authorized for grant activities. The
          ETA 9130 is the approved financial activity report (OMS approval
          through November 2012). Our reporting requirements are consistent
          with Federal rules throughout the Federal government. Additionally, all
          grantees further complied with ARRA Section 1512 reporting
          requirements for spending, which is a new, government-wide report for
          all spending under ARRA grants and contracts. Therefore, DOL has
          met all Recovery Act standards for transparency and accountability.



                                         3




                                 Recovery Act: Reemployment Services Grant for UI Claimants
                                     43                      Report No. 18-11-005-03-315
                                                         Prepared by Foxx & Company
                         For the U. S. Department of Labor – Office of Inspector General




}>   OIG Audit: "The DOL officials told us there was not enough time to develop
     and implement a new data collection system, nor was it practical to do so,
     given the limited duration of the Recovery Act funding. "

        o This is an incorrect summary description of information provided to the
          auditors: ETA is constrained by the data collection requirements
          contained in the Paperwork Reduction Act and is not authorized to
          request additional detailed financial reports without PRA compliance,
          and OMS clearance follows an extensive process to justify the
          additional burden on a grantee. ETA already had a financial reporting
          system in place that provides the resuhs of financial activity in a
          manner consistent with all Federal reporting requirements. Recovery
          Act funding was appropriated under existing program authority in order
          to use existing systems and processes to expedite implementation and
          minimize the creation of new systems.

}>   D IG Audit: "For the States we reviewed, the officials told us that DOL never
     asked for repolts on how they were spending their funds, but rather asked for
     repolts on how quickly the funds were being obligated. The States wef"9 able
     to provide us with information on how they spent the RES funding. We found
     there was a wide variance in how the States maintained information on RES
     expendituf"9s which were not uniform or consistent among the four States.
     Califomia had 16 categories of expendilures, New Yorl< 14, Pennsylvania 12
     and Florida had 9."

        o The use of different "categories' is perfectly consistent with the
          differing state accounting and budget requirements. The different
          "categories" referenced in the report are accounting system
          budget/expense codes commonly found in accounting systems. Each
          state will account for the funds in a manner that allows them to fully
          track funds for state accounting purposes as well as for Federal
          reporting . We do not believe this paragraph or the breakdowns of
          different state accounting system codes used to support the auditor's
          opinion are relevant to this report.

}>   DIG Audit: "We obtained several DOL monitoring repolts and related
     documentation that stressed the need for funds to be obligated. However,
     none of these repolts or documentation referenced the need for sound
     financial or fiduciary spending responsibility."

        o We disagree with the statement and opinion expressed. It is accurate
          that ETA provided technical assistance to the states and stressed the
          early obligation and expenditure of funds in keeping with
          Congressional intent for the Recovery Act to provide services to those
          impacted by the recession. "is not accurate to state that ETA did not



                                         4




                                  Recovery Act: Reemployment Services Grant for UI Claimants
                                      44                      Report No. 18-11-005-03-315
                                                             Prepared by Foxx & Company
                             For the U. S. Department of Labor – Office of Inspector General




                reference a need for sound financial management of its grants. ETA
                has an oversight system based on the use of the Core Monitoring
                Guide and the ARRA supplement. Our monitoring reviews the
                financial and grant management systems of all grantees and grant
                agreements contain specific requirements for the proper management
                of funds. The fact that the monitoring reports did not "reference" the
                need does not mean that the requirements were not present or that
                they were not reviewed . Rather, the monitoring reports fou nd no
                issues in the review and therefore, no compliance findings needed to
                be addressed. In addition, ETA staff review progress and financial
                reports and conduct a desk review on a quarterty basis. Any
                discrepancies are discussed with grantees, and technical assistance is
                provided as needed.

 Finding 3: Recovery Act RES Funds Were Not Spent Earty in the Grant Period,
 and DOL Did Not Provide Proper Oversight to Determine if the Funds were Spent
 Concurrently with Other Grant Funds.

 ETA Respo nse: We do not believe that this is a finding. The law established
 the period of time within which to spend the funds with no requirement for earty
 expenditure, and the RES funds were spent both within the grant period and
 concurrently with other Wagner.Peyser funds. ETA requires all grantees to
 report financial activity by fund source on a quarterly basis. An analysis of these
 reports shows that Wagner-Peyser ARRA funding and Wagner-Peyser regular
 formula funding were spent concurrently. Additionally, RES ARRA funds were
 spent concurrently with Wagner.Peyser regular appropriation and ARRA funds.
 (See Table below). The Core Monitoring Guide ARRA Supplement contains
 specifIC questions related to spending concurrently and 10 supplement non.ARRA
 funds in Objective 3.1 Budget Controls. Thus, this guide prescribes ETA's
 oversight on this point. These facts -were readily available to the auditors but
 unaccounted for in the report.

 In addition, the OIG audit report fails to accurately acknowledge DOL's
 implementation of the legislation which allowed states to obligate funds until
 September 30, 2010 and to expend funds up to June 30, 2011 .

                                                          ObU allons

                                                                7/1110 to 9/301~ ~tY -to.date
.!!!!D....ram                     7/1109 to 6/30MO IPY   20~                2010
WP·ES Regu lar Appropriation
Fu ndi                                        641185811 .99                   190.624736.78
WP-ES ARRA fundI                               95 365 860.34                   42 767 102.08
RES ARRA fUndI                                165.470.310.59                   64.907.572.13

Finding 4: Unreliable DOL Reports on Grant Activities Prevent Assessments of
Grant Outcomes.



                                             5




                                      Recovery Act: Reemployment Services Grant for UI Claimants
                                          45                      Report No. 18-11-005-03-315
                                                         Prepared by Foxx & Company
                         For the U. S. Department of Labor – Office of Inspector General




ETA Response: We believe thatlhe audit finding is based on an
oversimplification of the process of reporting and an incorrect understanding of
ETA's guidance to states. As a result, the DIG audit report makes an inaccurate
conclusion about reporting reliability. State reports to ETA capture the results of
a state's activity (i.e. , the number of UI claimants served and the type of services
received). The OIG audit report makes a factual error by inferring that DOL did
not track participants in the RES program separate from the larger Wagner.
Peyser-funded Employment Service program.

 TEGL 24-08, The Worldorce Investment Act and Wagner-Peyser Act
 Performance Accountability Reporting for the American Recovery and
 Reinvestment Act of 2009, provides instructions for states to report on RES
 Recovery Act-funded participants separately. The TEGL provides a definition of
 an RES participant and goes on to cite two factors that make it necessary to
create a separate rePort for the Reemployment Services portion of the Recovery
Act: "(1 ) The Recovery Act makes a clear distinction between general Wagner.
Peyser Act funds and Reemployment Services funds to support targeted services
to Unemployment Insurance claimants. Oversight bodies, including Congress,
have indicated the need to better understand the impact of the $250 million
dedicated to UI claimants; and (2) the Wagner-Peyser Act Employment Service
serves over 14 million individuals each year [since ARRA: 23 million]. If RES
participants are not reported separately from the regular Wagner.Peyser Act
reportlng, ETA would not have the ability to analyze and track positive effects of
the new Reemployment Services funds. Separate identification and reporting of
these participants ensures that ETA can demonstrate accountability for
resources expended by these grant: ETA's most recent monthly report from
January 2011 shows that over 5.4 million unemployed workers have received
services through the RES funds since May 2009 (See Attachment D).

The OIG audit report also stated that ·states were not reporting the services
provided to UI claimants consistently... • citing differences in numbers and
proportion of services from state-te-state. This statement is another example of
the lack of understanding of a decentralized workforce system. The numbers
and proportion of services differ from state-te-state because of different state
program service design strategies - and not inconsistent reporting. Reporting
does not drive service delivery; it captures the outputs and outcomes of the
state's overall strategy. The workforce system is decentralized, and states and
local areas have discretion in the service strategies they choose and how they
respond to their unique Jabor market needs.

RecommendatJon 1: Establish priorities, outcome measures, and reliable data
collection systems for future Wagner.Peyser funding to address program
weaknesses and better measure the services states are providing to UI
claimants.




                                         6




                                  Recovery Act: Reemployment Services Grant for UI Claimants
                                      46                      Report No. 18-11-005-03-315
                                                       Prepared by Foxx & Company
                       For the U. S. Department of Labor – Office of Inspector General




 ETA Response: DOL operationalized all the elements of this recommendation
 (and more) in implementing the ARRA RES program, and DOL will do the same
 should additional funding be made available under the Wagner-Peyser Act, To
 recap: ETA set priorities through formal guidance and technical assistance;
 received quarterly data on outcomes (percent getting a job, retained in the job
and earnings); and maintained the Labor Exchange Reporting System (LERS) for
Wagner-Peyser funds. In addition to outcome reports, DOL implemented new
monthly Recovery Act pertormance reporting requirements. The resulting report
provided additional, timely information to DOL, the general public, and other
stakeholders about the use of the Recovery Act funds. The monthly 9147
pertormance reports (on participants and services) and quarterly 9002
pertormance reports (on outcomes of program exiters) allowed users to view
real-time pertormance progress and long-term employment outcomes for UI
claimants who received RES. In summary, DOL's accountability guidelines for
the Recovery Act, as outlined in TEGL 24-08, emphasized data quality,
streamlining data collection, and collection of information that demonstrates
measurable program outputs and outcomes consistent with the intent of the Act.
There is no further action needed on this recommendation.

Recommendation 2: Develop adequate monitoring and financial reporting
requirements to enable DOL to report how effectively federal funds are spent by
states to provide employment and reemployment services.

ETA Response: ETA does not believe that this OIG audit recommendation is
supported by fact. This recommendation appears to be based upon a
misunderstanding of both OMB reporting burden requirements and the Recovery
Act requirements. While we address this misunderstanding in our response to
Finding 2, we elaborate on what appears to be a flawed analysis of requirements,
reports and supporting documentation.

ETA has an apprOVed, robust system of monitoring and financia l reporting in
place that enables DOL to report to Congress and the public on how federal
funds are spent by states. This system is supported by numerous documents
that were provided to Of discussed with the auditors, including (1 ) Employment
and Training Order- 1-08, the ETA Core Monitoring Guide (with multiple
supplements including the one for Recovery Act funding); (2) OMB approved
forms 9130 and 9136 for grantee financial reporting; (3) the WIA Standardized
Reporting Data system for grantee pertormance outcomes; and (4) the Grants
Electronic Monitoring system, (GEMS) for management of grants during the
period of pertormance. In addition, specifically for the ARRA programs ETA
implemented the transparency requirements of Section 1512 of ARRA, under the
guidelines provided by the Recovery Act Transparency Board (RATS), and OMB
Memoranda M-09-1 0, M-09-15, and M-09-2 1. This compendium of policies and
procedures provide a framework for the management of Federal grant funds that
is comprehensive and in keeping with all Federal grant management standards
and requirements.



                                       7




                                Recovery Act: Reemployment Services Grant for UI Claimants
                                    47                      Report No. 18-11-005-03-315
                                                       Prepared by Foxx & Company
                       For the U. S. Department of Labor – Office of Inspector General




Recommendation 3: Determine from its own independent analysis what states'
experiences were with the Recovery Act RES funding to identify best practices,
areas for improvement, and short and long-term achievements . DOL can then
use this information to set goals and measures for outcomes and achievements
for all future funding provided by Congress for reemployment and employment
services.

ETA Respo nse: ETA agrees that independent analysis of the results will be
useful for informing the design and development of future initiatives. ETA
already had planned or implemented such independent reviews before the OIG
audit commenced. For example, ETA provided grant funding to the National
Association of State Workforce Agencies (NASWA) to conduct a multi-state study
of the implementation of Recovery Act Investments, including RES. We are
about to release an interim report: Early Impl6mentation of the American
Recovery and Reinvestment Act: Worliforce Development end Unemployment
Insurance Provisions that contains information on best practices, results, and
areas for improvement based on fIVe surveys and two rounds of site visits to 20
states (See Attachment C). A fina l report will be issued later th is year. No
further action is needed on this recommendation .




                                      •



                               Recovery Act: Reemployment Services Grant for UI Claimants
                                   48                      Report No. 18-11-005-03-315
                                                        Prepared by Foxx & Company
                        For the U. S. Department of Labor – Office of Inspector General




                     signed into law, ETA hosted a
                     Reemployment Works Summit with workforce
                     professionals from all 50 states. Near1y 700
                     individuals participated. The majority of workshops
                     focused on reemployment strategies. Topics            27..Jan-09
                     included UI claimant profiling and supporting
 National            technologies; how to triage; Ul/reemployment
~:;ir~,;~J~;n~l~eg~,~a~tio~n; real time labor mark~t information; and
                                                    ;
                     Employment Guidance Leiter (TEGL)          13-08,
                     ARRA allotments to states and outlying areas for
                     the Wagner.Peyser Act (including Reemployment
 RES Allotments      Services) • just 17 days after the passage of the

                                       I         I           i
                     Guidance on March 18, 2009 TEGL No. 14-08.
                     The guidance outlines the Department's
                     expectations for implementing the Workforce
 RES                 Investment Act and Wagner.Peyser Act funding in
 I                   the           Act and stale planning requirements


                     outlying areas on                         allowed
 RES Grant           for timely Notice of                  grant
                     ag",emen" bound               to new safeguards as

                                                         ;
Internal Technical                                       Wagner-Peyser
Assistance                                      American Reco very and
        ~~~~----~~~
                     Live Broadcast: I              the Recovery Act in


                     Readiness and Technical Assistance Consultation


                     Real Time Jobs in Demand: Finding Jobs in a




                                            9




                                 Recovery Act: Reemployment Services Grant for UI Claimants
                                     49                      Report No. 18-11-005-03-315
                                                        Prepared by Foxx & Company
                        For the U. S. Department of Labor – Office of Inspector General




 Technical
 Assistance          RES                           of Practice Kick-Off Technical
                       ;                       ;
                                     " slate
                    I ;"'A                                               funds,YI:,,'~.:1
                     conducted readiness consultations with each state.
                     These consultations informed ETA's technical
                     assotance suategy. As p'anned , 209 v;s""
                                      by May 22, 2009. A consolidated
                                                                                 G;"
 State Readiness
                I~~~~2009nOM~'ea'ed                        ,      , and 171 .'
                       , 'with a                               ',o:,a';:      '    • ;n
                                                                      ~,':':JO~~~~~,'
             , I the ,
 Engaged Inter-
                                 ,
                                                                   ; NCSL; Counties;

~
                                           ; .; NAWB, etc.                                  1

                   I ~~~! Vision and Guidance: Using your RES
~                  I ::e:~n                             and Reinvestment Act (ARRA)
                                           ;                       ;

                                       ,
                     Targeting Job Development for Unemployment



                    TEGL 24-08 (and TEGL 7-10) Workforce                                        Updated
 Performance        Investment Act and Wagner-Peyser Performance
                                                           for lt~American                  8-Aug-09
                                 , and

         ;   ,
     ;                       ;   Access Points: Faith-Based and

         ;
I!
                   IARRA
                                 ;
                                       de~%:~~ ~"tr:~~~:s resPO~d
                                                       to          to the
                    economic downturn and implement the Recovery
                    Act by June 30, 2009. The June 30, 2009
                    submission covered the period of July 1, 2009
                    through June 30, 2010. ETA reviewed and
State Plan                    plans within 90 days of receipt of the
                   I D'an.


                                                   10




                                       Recovery Act: Reemployment Services Grant for UI Claimants
                                           50                      Report No. 18-11-005-03-315
                                                  Prepared by Foxx & Company
                  For the U. S. Department of Labor – Office of Inspector General




Technical      Connecting Unemployment Insurance Claimants to
Assistance     Pell Grants: The Financial Aid Basics for the
      ~~~~--------~~
               Utilizing labor Market Information to                    Job


               RES:                     Your Reemployment Efforts


               Utilizing labor Market Information to                    Job


               Utilizing l MI to




               ARRA (Recovery Act) Section 1512 Reporting


               ARRA Section 1512 Registration and Data Quality




                                             '':;;';I:;'';':BBa;~,:ririers to

               ARRA 1512 Reporting Orientation for New




                                           iii

NASWA
Recovery Act




                                   II




                            Recovery Act: Reemployment Services Grant for UI Claimants
                                51                      Report No. 18-11-005-03-315
                                                      Prepared by Foxx & Company
                      For the U. S. Department of Labor – Office of Inspector General




                   ETA's Regional Recovery and Reemployment
                   Forums were implemented to provide timely and
                   regionally-customized technical assistance to the
6 Regional         system in a mode that enabled wide system
Forums: In­        participation. The Forums represented a
Person TA          significant component of the larger Reemployment
Meetings on        initiative undertaken by ETA. The Forums had a
Reemployment       combined total attendance of 2,201 participants,        30-Mar-10
Services and       with                  from all 50 states and three of          to

                   A collaborative presentation to states by NASWA,
                   US DOL, and select states to discuss innovative
                   ideasltechnologies that can be carried out using


state approaches
to using RES

                                illi
                    Grants provided                              have
                    generated a host of creative and i
                    approaches to helping the unemployed. In
                    particular, we have leamed a great deal over the
                    last year about how assessment tools can
                    strengthen reemployment services. Personality
                    assessments, work values assessments, skills
                   transferability assessmentsltools, interest
                    assessments, educational assessments,
                   occupational skills assessments, work readiness
                   assessments and the list goes on and on. All of
                   these types of assessments and more increase the
                   workforce system's ability to match job seekers
                   and employers. If you are still looking for ways to
                   invest your ARRA RES funds,    we    want to help you
                   learn about which instruments are the most
                   effective by connecting you with your workforce
                   system colleagues who can give you unbiased,
                   first-hand feedback on their experience with
                   specific products. If you are interested in
                   purchasing a particular assessment instrument or
                   tool and would like to see if there is a workforce
                   system colleague that is using the instrument you
Webinar (using     are interested in, please contact our resident
RES funds for              on assessment tools: lauren Fairley-Wright




                                       12




                                Recovery Act: Reemployment Services Grant for UI Claimants
                                    52                      Report No. 18-11-005-03-315
                                                           Prepared by Foxx & Company
                           For the U. S. Department of Labor – Office of Inspector General




                        Workforce Investment wrighl.lauren@dol.gov




                        Strategic Doing is also a platform for moving
                        quickly and collaboratively from innovative ideas to
                        innovative actions in a simple, structured and -
                        most important in our fast-moving world where
                        even a few focused hours are a lUxury - fast
                        process that helps to solidify partnerships, define
                        relationships, and create a "swarm" (to borrow a
                        Strategic Doing term) of new ideas and solutions
                        quickly. And with many states needing to decide
                        how best to invest their expiring ARRA
                        Reemployment Services (RES) and Wagner-
                        Peyser dollars, there may be no better time to
Strategic Doing -       become familiar with this action-oriented decision
And What It             making tool. As you will see from the materials, a
Might Do for Your                number of local, regional and state

AR~~
                                       are using this approach to "j ump-
                    I   ;;:~: .

~ ss,st
IReem~:orent            Rollout of innovative skill matching website called

       ; I
   ,
                             "


                                           13




                                    Recovery Act: Reemployment Services Grant for UI Claimants
                                        53                      Report No. 18-11-005-03-315
                                                  Prepared by Foxx & Company
                  For the U. S. Department of Labor – Office of Inspector General




               The conference was designed to give the
               workforce community an opportunity to engage
               with experts and colleagues to broaden their
               understanding of critical labor issues and
National       challenges in the present economy. The
Recovery and   conference translated specific research, pilot,
Reemployment   demonstration, and evaluation efforts into
Research       actionable reemployment strategies that can be
Conference     used in the workforce svstem.                       15-Sep-10
Virtual Tool
Assist
Reemployment
Unemploved     Rollout of the Worker Reemnlovment Portal           20-Sep-10
Virtual Tool
Assist
Reemployment   On-line Unemployment Insurance (UI) Adjudication
Unemploved     Traininn Announcement                               20-Sep.10
Technical
Assistance     RAD Feedback Session Chat: Jump On A Moving
Webinar        Train: More RAD News                                 1-Nov-10
Technical
Assistance     RAD Feedback Session Chat: Jump On A Moving
Webinar        Train: More RAD News                                 2-Nov-10
Technical      A National Vision for Reemploying Unemployment
Assistance     Insurance (UI) Claimants Through an
Webinar        Integrated/Interconnected Workforce S stem          22-Nov-10
               Brought together of 800 state and local workforce
               practitioners from across the country. The summit
               was an opportunity 10 advance the national
               discussion about the design and delivery of
               effective reempl oyment solutions for workers and
               businesses. A number of proposed workshops
               support ETA's vision of a stronger, more
               interconnected One-Stop delivery system.
               Examples of workshops especially pertinent to the
               Employment Service and its role include: 1)
National       Strategies for Serving the Longest Unemployed; 2)
Reemployment   Targe~~ Reemployment Services with Program
Summit         Data· 3 Translatin-aLabor Market                    15-Dec-10


                                 14




                           Recovery Act: Reemployment Services Grant for UI Claimants
                               54                      Report No. 18-11-005-03-315
                                                  Prepared by Foxx & Company
                  For the U. S. Department of Labor – Office of Inspector General




                Information for Improved local Area Service
                Delivery; and 4) Research on Reemployment
                Stratea-ies.
Technical
Assistance      Reemployment and Eligibility Assessments Moving
Webinar         Forward (Part I) ·                                   25.Jan-11
Technical
Assistance      Reemployment and Eligibility Assessments Moving
Webinar         Forward (Part II)                                    31-Jan-11
Virtual Tool
Assist
Reemployment
Unemploved      Introducing Mv Next Move                             18-Feb-11
Technical
Assistance      Reemployment and Eligibility Assessment Program
Webinar         Innovations in Tennessee and Utah                     7-Mar-11
Technical
Assistance      Program Performance-Calculation of Registered
Webinar        I Aop~enticeship PrOQram Completion Rates              B-Mar-11
Technical      Re-envisioning UI Claimant Reemployment
Assistance     Strategies: A Call to Innovate (Connectivity Vision
Webinar        Series - Region 1)                                     8-Mar-11
Technical      Re-envisioning UI Claimant Reemployment
Assistance     Strategies: A Call to Innovate (Connectivity Vision
Webinar        Series· Region 6)                                      9-Mar-11
Technical      Re.envisioning UI Claimant Reemployment
Assistance     Strategies: A Call to Innovate (Connectivity Vision
Webinar        Series· Region 5)                                      9-Mar-11
Technical      Re-envisioning UI Claimant Reemployment
Assistance     Strategies: A Call to Innovate (Connectivity Vision
Webinar        Series - Region 4)                                    11-Mar-11
Technical      Re-envisioning UI Claimant Reemployment
Assistance     Strategies: A ca~)to Innovate (Connectivity Vision
Webinar        Series· Region 2                                      14-Mar-11
Technical      Re-envisioning UI Claimant Reemployment
Assistance     Strategies: A ca~)to Innovate (Connectivity Vision
Webinar        Series · Region 3                                     16-Mar-11




                                  15




                           Recovery Act: Reemployment Services Grant for UI Claimants
                               55                      Report No. 18-11-005-03-315
                                                        Prepared by Foxx & Company
                        For the U. S. Department of Labor – Office of Inspector General




                                                                   Attachment B




When Congress included $250 million for Reemployment Services (RES) in the
American Recovery and Reinvestment Act's (ARRA), we knew it was a great
opportunity to reinvigorate one of the public workforce system's most vital
functions. Since February 2009, stales have made a variety of innovative
investments to meet the urgent challenge of reemploying millions of Americans _
from mobile RES units, to new skill assessment tools, to integrated information
management systems that support the seamless delivery of reemployment
services to all job seekers. Through our travels to regional conferences and our
conversations with you. we have learned of the steady progress toward our goal
of system integration and transformation.

An important deadline is approaching: All ARRA RES funds must be obligated by
September 30th. 2010. While states have through PY2011to spend the monies,
any funds thaI have not been obligated by this September win expire. Over the
course of the next six weeks. NASWA and ETA will focus on how states can
invest their ARRA RES funds to strengthen services to unemployed workers and
bolster the long-term capacity of the system to provide reemployment services by
improvements in both staff training/capacity and service design. We will use
webinars and the community of practice as vehicles for sharing information and
providing technical assistance. Upcoming activities include:

Weblnar: We will kick off the campaign this Friday, April 30th when NASWA and
ETA jointly host a webinar featuring three innovative approaches to spending
RES funds. The webinar will include presentations by Washington, WisconSin,
and Utah. each of which invested their ARRA funds on creative and system­
enhancing activities that will provide a foundation for continued program
improvements.

Sharing Beat Practices: The community of practice will host a series of blogs
detailing how different states are responding to the challenges of serving the
unemployed and strengthening system integration and performance.

Peer-to-Peer Technical Assistance: The community of practice will also host
live discussion threads. through which states can pose questions or suggestions
around effective ways to obligate their funds. Community of Practice managers
and NASWA staff will facilitate peer-to-peer information sharing across the
states.

ARRA RES Shopping LIst: The community of practice will host a collaborative
' shopping list" of items that states are buying with their ARRA RES funds. We
hope you will add your awn investments to this "wiki shopping list" and share any
questions or suggestions you have about the use of ARRA RES funds.


                                       16




                                 Recovery Act: Reemployment Services Grant for UI Claimants
                                     56                      Report No. 18-11-005-03-315
                                                      Prepared by Foxx & Company
                      For the U. S. Department of Labor – Office of Inspector General




We believe this is a critical moment in our effort to transform and expand
reemployment services. Any monies that are not obligated by September 30th,
2010 represent a lost opportunity at a time when reemployment services are in
greater demand than at any time in recent history. With the unemployment rate
expected to remain high, it is essential that we continue to invent new and
creative ways to help Americans get back to work. We know you share our goal
and we look forward to working with you on this urgent challenge.




                                    17




                              Recovery Act: Reemployment Services Grant for UI Claimants
                                  57                      Report No. 18-11-005-03-315
                                                        Prepared by Foxx & Company
                        For the U. S. Department of Labor – Office of Inspector General




                                                                    Attachment C

           Snapshot of State Accomplishments Using RES Funds

Except: Early Implementation of ARRA: World'olte Development and U/
Provisions (pg 108-109) by the National Association of State Workforce Agencies
(NASWA).

Many of the states visited by researchers (AZ., CO, FL, IL, OH, and WI) included
RES activities among their major achievements under the Recovery Act. In
Arizona, Recovery Act funds allowed the state to launch a new RES program
across the state, including three dedicated reemployment centers in counties
with significant unemployment. Colorado noted that its efforts under the
Recovery Act have helped bring the UI and workforce systems closer together;
staff on both sides is more knowledgeable about the other's programs and more
willing to collaborate. Florida officials also viewed their RES program as an
accomplishment, particularly the new emphasis on intensive staff-assisted
services. Illinois successfully re-Iaunched its RES program, last offered in 2005,
with Recovery Act funding.

Ohio, with local workforce agencies facing budget cuts and hiring freezes. the
additional Wagner-Peyser and RES Recovery Act funding enabled the state to
bring on 100 intermittent (temporary, full-time) staff, which have been deployed in
One-Stops across the state to handle burgeoning numbers of customers. This
additional funding also helped to expand the numbers of RES orientation
sessions and one-on-one case management services available to UI claimants.

One of the biggest accomplishments in the Wisconsin workforce system that has
resulted from the Recovery Act is that there has been a substantial expansion in
RES services. Wagner-Peyser Recovery Act funds ($7.2 million) and UI
Recovery Act administrative funding ($3.6 million) - for a total of nearly $11
million - were used to expand and fundamentally change the way in which UI
claimants are served by the One-Stop system. State officials noted that the
Recovery Act provided the resources needed to re-engineer and make
fundamental changes to the way in which RES is provided for UI claimants.

Wisconsin's CSf96r Pathways model, developed several years ago through a
Joyce Foundation grant, is now being applied to ur claimants with Recovery Act
RES funds.

These findings are echoed in NASWA's survey. Almost half of the survey
respondents (46%) reported that their state's RES program or the UIM'orkforce
system partnership in their state was an achievement of the Recovery Act
implementation. Only 27% of those states, however, reported that their
achievements in RES were sustainable.




                                        18




                                 Recovery Act: Reemployment Services Grant for UI Claimants
                                     58                      Report No. 18-11-005-03-315
                                                        Prepared by Foxx & Company
                        For the U. S. Department of Labor – Office of Inspector General




                                                                   Attachment 0

       Recent 9147 Monthly Report and 9002 Quarterty Outcomes Report




          WAGNER-PEYSER REEMPLOYMENT SERVICES
                GRANTS MONTHLY REPORT




              Participant Infonnatlon




Sample 9002 Outcomes Report from the Quarter Ending December, 2010

                       Outcome. for UI Claimant.
   Entered Emplo ent (i.e. gol a Job)               2,632,595
   Entered Emplo   nl Rate Base                     5.150,352
   Entered Emplo enl Rate
   Employment Retention (i.e., kept a '             2,077,806
   Employment Retention Bese                        2,782,791
   Employment Retention at Six Months Rate                      ,,%

-Note the monthly report captures participants (active in the system) whereas the
outcomes' report captures employment outcomes of those who exited the
program.




                                         19




                                 Recovery Act: Reemployment Services Grant for UI Claimants
                                     59                      Report No. 18-11-005-03-315
                                    Prepared by Foxx & Company
    For the U. S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





          Recovery Act: Reemployment Services Grant for UI Claimants
              60                      Report No. 18-11-005-03-315
                                                               Prepared by Foxx & Company
                               For the U. S. Department of Labor – Office of Inspector General

                                                                                Appendix E
Auditor Response to Agency Comments


Summary of ETA Response and Auditor Conclusion

Finding 1: DOL Provided Timely General Guidance But Missed an Opportunity to
Direct the states to Address Identified Long-Term Deficiencies and Weaknesses in the
Reemployment Services Program.

ETA said that it did not have the authority to direct states to use RES grant funds to
correct program deficiencies. It said that “… it is illegal for DOL to “direct” states without
express authorization for Congress to target the funds to a narrower scope of allowable
activities than contained in the law.” ETA said that it acted as directed by the Recovery
Act and the requirements of the Federal Grants and Cooperative Agreements Act of
1977. However, the Recovery Act does not restrict DOL’s ability to target funds. It
merely says that “funds shall be used by states for reemployment services….” The
Federal Grants and Cooperative Agreements Act of 1977 also does not prohibit DOL
from directing states on the use of funds. The Act distinguishes, in general language,
the circumstances in which a grant or contract should be used by federal agencies and
indicates that grants are authorized when federal control over a funded activity is
expected to be lower and that contracts should be used when federal control will be
greater. In fact, DOL guidance on the Federal Grants and Cooperative Agreements Act
of 1977 that ETA cited stated the following: “At times DOL Agencies may find it
necessary to increase their involvement in a grant-funded project during the period of
time covered by the grant. This could happen, for example, when standard grant reports
or monitoring indicate some sort of problem. If this occurs, Agencies should not view
the Act as restricting their authority to intervene as necessary to bring the project into
conformance with original intentions.”

In addition, we noted during our review that ETA does negotiate goals for the program
and requires actions that states need to address. Also, ETA performs monitoring
reviews of the states and issues reports recommending that states take certain actions.

The Wagner Peyser Act establishes grant management duties for ETA and specifies
one means, i.e., approval authority over state spending plans, to exercise this
management responsibility. According to Section (3) (a), “The Secretary shall assist in
coordinating the state public employment services throughout the country and in
increasing their usefulness by developing and prescribing minimum standards of
efficiency, assisting them in meeting problems peculiar to their localities, promoting
uniformity in their administrative and statistical procedure, ….”. Section 3(c) requires
the Secretary to: “(1) assist in the coordination and development of a nationwide system
of public labor exchange services, provided as part of the one-stop customer service
systems of the states; “and “(2) assist in the development of continuous improvement
models for such nationwide system that ensure private sector satisfaction with the
system and meet the demands of jobseekers relating to the system….”. Moreover,

                                      Recovery Act: Reemployment Services Grant for UI Claimants
                                          61                      Report No. 18-11-005-03-315
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General


Section 8 (a) provides that “Any State desiring to receive assistance under this Act shall
submit to the Secretary…detailed plans for carrying out the provisions of this Act within
such State.” Section 112 (a) of the Workforce Investment Act of 1998 provides that “For
a State to be eligible to receive … financial assistance under the Wagner Peyser Act…,
the Governor of the State shall submit to the Secretary for consideration by the
Secretary, a single state plan .…”. The Workforce Act states that this plan shall include
“with respect to the one-stop delivery systems…a description of the strategy of the State
for assisting local areas in development and implementation of fully operational one-
stop delivery systems in the State….”. Section 8 (c) requires that the State plan for
Wagner Peyser grants include the information mandated by the Workforce Act.
Section 8(d) states that “If such detailed plans are in conformity with the provisions of
this Act and reasonably appropriate and adequate to carry out its purposes, they shall
be approved by the Secretary of Labor….”.

In our view, these statutory provisions give DOL responsibilities with respect to the use
of the grant and provide ETA with authority to use state plans as a mechanism for
directing funds to the correction of problems discussed in our report.

In addition, one of the chief shortcomings pointed out by various reports which ETA
could have addressed more directly with the RES grant funds was inadequate state
profiling systems, i.e., statistical models to forecast which UI claimants would exhaust
benefits before finding employment. The purpose of these profiles is to refer the
claimants most needing help to state reemployment services funded with Wagner
Peyser grants. As described below, the Act requiring States to use these models also
gives the Secretary of Labor responsibility for ensuring that States comply.

Public Law 103-152, the Unemployment Compensation Amendments of 1993,
contained requirements that States must meet as a condition of receiving UI grants. In
guidance to all State Employment Security Services, ETA stated that P.L 103-152
requires DOL to “provide technical assistance and advice to the States in implementing
the worker profiling systems.” In response to this legislation, DOL launched a major
initiative to establish an integrated, comprehensive worker profiling and reemployment
services system including the Unemployment Insurance (UI) and Employment Services
programs. DOL’s guidance to the States stated “the Department has determined the
following minimum requirements: A State profiling system must identify all new
claimants for regular UI claimants who are permanently laid off (and who are, therefore,
likely to exhaust benefits)”. ETA guidance continues: “under the minimum required
profiling system, States must use . . . to identify claimants for purposes of referral to
reemployment services.”

The above Pubic Laws, DOL guidance, and actions directed by statements in its
monitoring reports contradict ETA’s assertion that it cannot direct State grantees. One
ETA regional monitoring report provided has references indicating that one State had
stopped profiling. The monitoring report references Public Law 103-152 as justification
for why the State needed to resume profiling. These statements are taken directly from
the ETA monitoring report: “Action Required – The agency must reinstate profiling

                                     Recovery Act: Reemployment Services Grant for UI Claimants
                                         62                      Report No. 18-11-005-03-315
                                                               Prepared by Foxx & Company
                               For the U. S. Department of Labor – Office of Inspector General

immediately to comply with Federal law . . . Notify the regional office within 30 days of
receipt of this report of a proposed date for profiling to be back online and operational.”

The above information is important for several reasons:
   •	 DOL was charged by Public Law to direct State activity in the development of a
      profiling system, which it did.
   •	 Credible reports by several organizations reference the fact that there have been
      weaknesses and deficiencies in several State profiling systems for a number of
      years.
   •	 ETA’s Regional monitoring reports contain numerous references to inadequate
      State profiling systems.

The information referred to in the second and third bullets above provided ETA with
adequate knowledge that several States have not been complying with Public Law 103-
152. The Recovery Act provided $247.5 million of additional funding for the States, but
ETA did not establish a goal for the States to spend at least a portion of their funds to
address the profiling issue that clearly needed attention.

Additional references where ETA has clearly directed State activity include the following
quotes from several ETA regional monitoring reports:
   •	 Corrective actions must be addressed.
   •	 Actions are required to meet the noted discrepancies.
   •	 Evaluate whether grant programs and services are in compliance with applicable
       Federal, State, and local requirements.

We concluded that ETA could have directed some portion of RES spending to correct
shortcomings in the reemployment services program. ETA disagrees with this
conclusion. However, if ETA would have established goals for States to update their
profiling systems, it would have provided DOL with a good example to show its attempts
to be in compliance with the Recovery Act requirements for demonstrating positive
outcomes from the use of the funding. In addition, it would have enabled the States to
become compliant with Public Law 103-152. Furthermore, DOL would have fulfilled its
legislative mandate to assist the States in maintaining adequate profiling systems.

ETA described the steps it had taken to provide States with guidance on how to spend
RES funds. We agree that ETA did make extensive efforts in this regard and have
acknowledged this effort in our report. We have also indicated the mainly positive
reactions from States we reviewed to ETA’s guidance.

Many of the problems discussed in our report are long-standing deficiencies in the
program and have been documented repeatedly and should have been well known to
managers. We have cited the information in our report as justification for how the RES
grant could have been used more productively. Furthermore, ETA’s own review of the
“readiness” of States for Recovery Act funds was conducted in April and May 2009, and
could have been used for directing grant spending.


                                      Recovery Act: Reemployment Services Grant for UI Claimants
                                          63	                     Report No. 18-11-005-03-315
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General



ETA did not address a very significant finding in our report. That is, DOL cannot provide
to Congress an analysis or report that shows how the States spent the $247.5 million
provided by the Recovery Act. This clearly does not meet the Recovery Act’s
requirement for accountability and transparency.


Finding 2: DOL Did Not Monitor How RES Funds Were Spent to Achieve
Transparency Regarding the Uses of the Funds.

ETA did not disagree that more information on the uses of RES grant funds by the
States would have been desirable but said it was constrained by the Paperwork
Reduction Act and OMB rules from increasing data collection. Our report recognizes
the constraints under which DOL operated. ETA also said that because a regional
monitoring report of a state’s activities does not mention how funds were used does not
indicate that the review did not cover this subject. Given the emphasis the Recovery
Act placed on transparency and accountability, we believe that the monitoring reports
should comment on this subject even if the States are in compliance to ensure that the
issue was adequately covered. Monitoring how States are spending their funds, is
important, especially since we noted that several ETA regional monitoring reports had
findings that many States had not monitored their reemployment services program for
years.

We obtained several ETA monitoring reports in addition to the ones we received for the
four States visited. Our analysis of these ETA monitoring reports found numerous
references to the fact that many States were not performing adequate monitoring of
their program. Following are some quotes from those reports:
    •	 Monitoring of the reemployment services program has not been completed by the
        agency.

   •	 Monitoring by the State has not been completed for reemployment services.

   •	 The monitoring, conducted by the State, has not been done in a few years.

Thus, even though ETA had ample evidence that States were not complying with 20
CFR 667.410, which requires monitoring by the States of expenditures, ETA was
strongly encouraging States to obligate and spend the Recovery Act funds. This is not
sound financial oversight and does not meet the unprecedented transparency and
accountability required by the Recovery Act.

A grant reporting system that collects only basic information -- gross obligations and
expenditures -- does not adequately account for the nature or purpose of grant
spending. Monitoring reports that do not mention how funds were used does not
produce the level of transparency and accountability required by the Recovery Act.



                                     Recovery Act: Reemployment Services Grant for UI Claimants
                                         64	                     Report No. 18-11-005-03-315
                                                               Prepared by Foxx & Company
                               For the U. S. Department of Labor – Office of Inspector General


Finding 3: Recovery Act RES Funds Were Not Spent Early in the Grant Period, and
DOL Did Not Provide Proper Oversight to Determine if the Funds were Spent
Concurrently with Other Grant Funds.

ETA stated that the OIG audit report fails to accurately acknowledge DOL’s
implementation of the legislation which allows States to obligate funds until September
30, 2010 and to expend funds up to June 30, 2011. This is an untrue statement. Page
1 of the letter to the Assistant Secretary referred to the ETA TEGL which stated that the
funds were available to the States for obligation through September 30, 2010 and that
the funds were to be spent no later than the end of Program Year 2010 (June 30, 2011).
In addition, Exhibit 1 of the report shows the Recovery Act RES funding for each State
and any unobligated balance as of September 30, 2010.

Regarding our analysis that found that the obligation of 64 percent of the RES grant
funding was in the last nine months of the grant period (January through September
2010), ETA said that “The law established the period of time within which to spend the
funds with no requirement for early expenditure . . .”. However, ETA’s TEGL 13-08
stated that “States are expected to spend Recovery Act funding quickly and effectively”
and that “It is Congress’ intent, as well as the Administration, that the majority of these
funds will be utilized within the first year of availability.” (March 6, 2009 through
February 2010).

ETA said that the RES award funds had been spent concurrently with regular Wagner
Peyser funds. It offered as evidence a table showing that funds were spent from the
regular grant and the RES grant in both PY 2009 and PY 2010. We did not say that no
funds were spent concurrently. ETA did not address our finding that 20 States with
large unobligated RES fund balances near the end of the grant period spent less of their
PY 2010 regular Wagner-Peyser award than the national average in the first quarter of
PY 2010, which was the last three months of the RES grant period. Nor did they
address the fact that 8 of the 20 States did not spend any regular Wagner-Peyser
funding in this period, or that in one State we visited, Wagner-Peyser funds that would
ordinarily have been spent during the RES grant period were not spent until after the
RES funding period was over.

ETA commented that they added a step for checking for concurrent spending in their
monitoring guide. It is good that they added this step, however, none of the ETA
regional monitoring reports we reviewed contained reference to concurrent spending of
the RES grant funding and headquarters officials we interviewed were unaware of
whether the Recovery Act’s requirement for concurrent spending was met.
Furthermore, in reviewing the various financial documents provided by the States we
visited, we did not identify any documents referencing or indicating that concurrent
spending of the RES funding was being monitored or addressed. Given the emphasis
the Recovery Act placed on the need for concurrent spending, DOL’s actions were not
sufficient to meet the transparency and accountability requirements of the Act.



                                     Recovery Act: Reemployment Services Grant for UI Claimants
                                         65                      Report No. 18-11-005-03-315
                                                              Prepared by Foxx & Company
                              For the U. S. Department of Labor – Office of Inspector General


Finding 4: Unreliable DOL Reports on Grant Activities Prevent Assessments of Grant
Outcomes.

ETA said that ETA reports do distinguish RES clients from clients served by the regular
Wagner Peyser grant and that ETA reports do separately count RES clients. But as we
explain in our report, ETA TEGL 24-08 says that “because [client] characteristics and
eligibility [for both the regular Wagner-Peyser and RES grants] are identical and
because services will be paid for with both regular and Recovery Act funds it is not
possible for States and local service providers to distinguish who is a Recovery Act
participant in any meaningful way.” This statement is true for both reemployment
services clients and employment services clients. Because participants served with
Recovery Act funds could not be distinguished from those served by regular Wagner
Peyser funding, ETA chose to count all UI claimants who received staff assisted
services as RES clients when reporting RES program accomplishments. In this way,
DOL did separately report on UI claimants as it said in its response to our report. Our
point, which DOL did not dispute, is that this method overstates the number of clients
served with RES funds and the accomplishments of the RES grant because the regular
Wagner Peyser grant has always been used to provide reemployment services to UI
claimants. According to an ETA report, in PY 2008, the year before most of the RES
grant was obligated, 5.2 million (or 44%) of the total 11.9 million participants who
received staff assisted services were eligible claimants. In reporting RES
accomplishments, ETA included all UI claimants who would ordinarily have been
counted as regular Wagner-Peyser funded clients and added the clients to the RES
count. In its comments to our report, DOL does not dispute that its reporting policy
overstates the effect of the RES grant.

Our report references variations in State activity reports submitted to ETA that are not
credible. We discussed these variances with ETA officials who acknowledged that
there is inconsistency in the way States are defining the services provided to
participants. In its written comments to the draft report, however, ETA defends its
reports. It said that “Reporting simply captures the state’s activity.” It said that “The
numbers and proportion of services differ from state-to-state because of different state
program design strategies.” DOL offered no evidence to support this assertion. It
ignored our data showing the month-to-month variation within the same states.
The problem of inconsistent reporting by States is not limited to the States we visited.
We analyzed the information on eligible participants who received various services in
PY 2009 as reported on ETA’s website. The range of reported services among the
States is similar to what we found for the States we visited. For example, Kansas
reported that 16 percent of eligible participants received staff assisted services while
Massachusetts reported 97 percent, Indiana reported 84 percent for career guidance
and Kentucky 3 percent. Iowa reported that it had referred 77 percent of eligible
participants for employment and Connecticut referred one percent. Vermont showed
that 67 percent of eligible participants received workforce information and New York
reported 13 percent. Differences in reporting practices on this scale make assessments
of State performances extremely difficult, if not impossible.


                                    Recovery Act: Reemployment Services Grant for UI Claimants
                                        66                      Report No. 18-11-005-03-315
                                                             Prepared by Foxx & Company
                             For the U. S. Department of Labor – Office of Inspector General

Furthermore, in commenting on their Statement of Facts provided for review, one state
has this quote regarding outcomes: “There was no US DOL requirement or
expectations to track ARRA specific outcomes for RES.” Another State told us that
DOL had an opportunity to demonstrate success but that it did not.

Recommendations

DOL disagreed that the actions we recommended were necessary because it said it
already had adequate monitoring and reporting systems and that it had demonstrated
adequate outcomes. We believe that our report accurately reflects a program that lacks
sufficient transparency and accountability, as required by the Recovery Act. ETA does
not have enough information on how funds are being spent, did not leverage its
authority to fix longstanding weaknesses, and does not have adequate information on
what is being accomplished with Recovery Act funds.

DOL has not developed measurable goals, objectives, and outcomes for the Wagner-
Peyser program. Thus, DOL has not been in a position to provide adequate justification
or support for Congress to provide any additional or increased funding for almost 30
years. During this time period, the Federal budget has increased over 400 percent.
The current serious budget situation facing the Federal government will require very
difficult funding decisions and reductions will have to be made as the current Congress
and Administration have promised.

In our opinion, DOL now more than ever needs to provide better justification and
produce quantifiable results for this program. This is the intent of our recommendations
and why we continue to believe that they are sound and should be implemented by
DOL.




                                    Recovery Act: Reemployment Services Grant for UI Claimants
                                        67                      Report No. 18-11-005-03-315
TO REPORT FRAUD, WASTE, OR ABUSE, PLEASE CONTACT:

Online:	      http://www.oig.dol.gov/hotlineform.htm
Email:	       hotline@oig.dol.gov

Telephone:	   1-800-347-3756
              202-693-6999

Fax:          202-693-7020

Address:      Office of Inspector General
              U.S. Department of Labor
              200 Constitution Avenue, N.W.
              Room S-5506
              Washington, D.C. 20210
